U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                    Review of the Bureau of
                Alcohol, Tobacco, Firearms and
                   Explosives’ Violent Crime
                    Impact Team Initiative

                                May 2006




                                 I-2006-005
                               EXECUTIVE DIGEST


      In June 2004, the Department of Justice and the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) established the Violent
Crime Impact Team (VCIT) initiative as a pilot program designed to
reduce homicides and other firearms-related violent crime in 15 cities.
The goal of the VCIT initiative was to “decrease, within six months, the
number of homicides, number of firearms-related homicides, number of
violent crimes, and number of violent firearms crimes” in target areas in
those 15 cities. 1 In December 2004, ATF extended the initiative
indefinitely and, in April 2005, expanded it to include a total of 20 cities.

       There were two primary purposes of the VCIT initiative, as
articulated by the Office of the Deputy Attorney General (ODAG) and
ATF. The first was to reduce homicides and violent firearms crimes in
cities where homicide and violent crime rates had not followed the
national trend downward. The second was to test the effectiveness of
the VCIT strategy in reducing, rather than displacing, the incidents of
firearms-related violence in neighborhoods and communities by
identifying, targeting, and arresting the “worst of the worst” violent
offenders in specific targeted areas referred to as hot spots. The VCIT
initiative was designed to build on regular law enforcement operations
and the Department’s Project Safe Neighborhoods. 2

       To assist in implementing the VCIT program, ODAG and ATF
sought the participation of the Drug Enforcement Administration
(DEA), the United States Marshals Service (USMS), the Federal Bureau
of Investigation (FBI), and the Executive Office for United States
Attorneys (EOUSA). Each of these components agreed to support the
VCIT initiative to the degree that they could, given existing resources.
The VCIT pilot program initially was funded by $499,000 in
reimbursable funding from the Department’s Justice Management
Division (JMD). In FY 2005, ATF operated 20 VCITs using $6.8 million
reprogrammed from other ATF activities and general operating funds.


       1  “Justice Department Announces New Violent Crime Reduction Initiative,”
press release, U.S. Department of Justice, June 24, 2004.

       2 The Department’s Office of Justice Programs initiated Project Safe

Neighborhoods in 2001 to link federal, state, and local law enforcement, prosecutors,
and community leaders together in a multifaceted approach to deterring and
punishing gun crime.


U.S. Department of Justice
Office of the Inspector General
                                                                               i
Evaluation and Inspections Division
In fiscal year (FY) 2006, ATF received its first appropriation of
$20 million specifically to continue and expand the VCIT initiative.

       Prior to launching the VCIT pilot program in June 2004, ATF
completed a document describing the VCIT initiative entitled Violent
Crime Impact Teams: A Comprehensive Strategy (VCIT Strategy) and
provided it to ATF Special Agents in Charge and VCIT Coordinators as
an implementation guide. The VCIT Strategy described the underlying
concept of the VCIT initiative – concentrate on small high-crime areas
and remove the worst violent offenders. It also described the
initiative’s purpose, objectives, intended outcomes, and activities. On
January 26, 2006, ATF issued a report entitled Violent Crime Impact
Teams: Best Practices. In the report, ATF stated that the VCIT pilot
initiative had been a success and that the initiative should continue
because the number of homicides committed with firearms was lower
in 13 of the 15 VCIT pilot cities’ target areas than during the same 6-
month period of the preceding year.

       The Office of the Inspector General (OIG) conducted this review
to assess ATF’s implementation of the VCIT initiative. We examined
planning and implementation documents from ATF, USMS, the
Department’s Criminal Division, and EOUSA and conducted in-person
and telephone interviews with personnel from ODAG, ATF, DEA, FBI,
USMS, and EOUSA. We also conducted an e-mail survey of ATF’s VCIT
Coordinators nation-wide and made site visits to five of the VCIT pilot
cities, where we interviewed personnel from ATF, DEA, USMS, U.S.
Attorneys’ Offices (USAO), and other federal, state, and local criminal
justice officials.

       We focused our review on five elements described in the VCIT
Strategy that ODAG and ATF Headquarters officials consistently
referenced in describing the VCIT initiative. Because these officials
emphasized these five elements during our interviews, in speeches, in
internal documents describing the VCIT initiative, and included them
in the January 2006 Best Practices report, we determined that the
elements collectively differentiated VCIT from regular ATF law
enforcement operations. Briefly stated, these elements were:
(1) targeting specific geographic areas such as neighborhoods or
communities with a high rate of firearms violence; (2) targeting the
worst violent offenders in those areas; (3) building effective working
relationships with community leaders; (4) using ATF firearms
investigative technology resources; and (5) working in partnership with
other Department law enforcement components.


U.S. Department of Justice
Office of the Inspector General
                                                                   ii
Evaluation and Inspections Division
RESULTS IN BRIEF

       The OIG’s review of the implementation of the VCIT Strategy
found that while every VCIT had implemented some of the elements of
the Strategy, no VCIT had implemented all of the five key elements.
Further, we found that ATF did not implement an adequate evaluation
plan – at either the program or the local level – to identify the activities
that each VCIT undertook, assess how effectively each VCIT carried out
those activities, and determine whether violent crime declined in the
target areas. We concluded that ATF cannot conclusively show that
the law enforcement operations it undertook during the VCIT pilot
project were effective at reducing firearms crime in the target areas.
While the VCIT Strategy itself may be an effective tool to reduce violent
crime in target areas, ATF’s incomplete implementation and evaluation
of VCIT prevents it, and us, from determining the Strategy’s
effectiveness.

      The incomplete implementation of the VCIT Strategy was due
primarily to problems with the selection of the VCIT locations,
inadequate direction to ensure that the key elements of the Strategy
were implemented, and ineffective oversight of the VCIT operations by
ATF. ATF did not ensure that each VCIT implemented the key
elements of the VCIT Strategy, but instead left it to the Field Division
managers to develop local strategies.

ATF developed a detailed VCIT Strategy, but local operations did not
implement the Strategy’s key elements.

      The 32-page VCIT Strategy that ATF issued in June 2004
described six objectives ATF expected each VCIT to meet, while
adapting each objective to local conditions. 3 Directives to VCITs to use
ATF investigative technology resources and to include personnel from
other Department law enforcement components were woven
throughout the Strategy. In addition to these objectives and directives,
the VCIT Strategy included an extensive list of specific law enforcement
practices and procedures that should be adapted to local conditions
and implemented as part of the overall VCIT operations.

      Through interviews with the former Deputy Attorney General and
ATF officials, we identified five key elements described in the VCIT
Strategy that we deemed essential to implementing the VCIT initiative.

       3   These objectives are listed in the Background section beginning on page 3.


U.S. Department of Justice
Office of the Inspector General
                                                                                iii
Evaluation and Inspections Division
These elements also differentiated VCIT from traditional ATF
enforcement operations. In interviews, ATF officials said they expected
VCITs to integrate these elements into their local operation. The five
key elements are described in detail below:

       1. Target Small Geographic Areas. According to ATF’s VCIT
          Strategy, VCITs were intended to target specific small
          geographic areas within cities, referred to as hot spots, in which
          violent crime regularly occurred. The VCIT Strategy
          recommended assigning four Special Agents and one supervisor
          to concentrate on a target area.

       2. Target the Worst Violent Offenders. ATF’s VCIT Strategy
          recommended that VCITs develop lists of the “worst of the
          worst” violent offenders to target the most serious violent
          offenders in a target area. Targeting the most violent offenders
          is a key difference between VCIT operations and traditional ATF
          enforcement operations, which typically target firearm crimes.

       3. Build Effective Working Relationships with Community Leaders.
          ATF’s VCIT Strategy called for VCITs to develop effective
          relationships with community leaders to facilitate a “free flow”
          of information that could help identify and apprehend violent
          offenders.

       4. Utilize ATF’s Investigative Technology Resources. ATF’s VCIT
          Strategy called for VCITs to expand their use of three resources
          to analyze firearms evidence and help solve crimes: the
          National Tracing Center (NTC), which traces firearms recovered
          at crime scenes to their original points of purchase and
          purchasers; the National Integrated Ballistics Information
          Network (NIBIN), which collects and analyzes images of fired
          cartridge casings and bullets to link specific firearms to
          criminal activity; and the Crime Gun Analysis Branch (CGAB),
          which analyzes data from firearms traces and reports of
          handgun sales and firearm thefts to identify “crime gun”
          patterns.

       5. Work in Partnership with Other Department Law Enforcement
          Components. ATF’s VCIT Strategy called for representatives
          from other federal law enforcement agencies, including DEA
          and FBI Special Agents, Deputy U.S. Marshals, and Assistant
          United States Attorneys (AUSA), to be included on the VCITs.


U.S. Department of Justice
Office of the Inspector General
                                                                    iv
Evaluation and Inspections Division
           This approach was intended to integrate and focus the full
           capabilities of the Department on the target area.

       We visited five VCIT pilot cities (Tampa, Tucson, Philadelphia, Los
Angeles, and Miami) after the pilot period had ended to assess in more
detail how each of the ATF Field Divisions involved had implemented the
key elements of the VCIT Strategy. The following sections describe our
observations, together with the results that ATF reported for each
location.

Tampa VCIT

       •   Target Area. The VCIT target area was two neighborhoods in
           two local police districts covering 7 square miles, and ATF had
           plans to expand it to two more districts. ATF designated an
           existing agent group previously assigned to another ATF
           operation, supplemented by additional ATF Special Agents, for a
           total of 11 Special Agents assigned full time to the VCIT and 10
           assigned part time.

       •   Targeted Offenders. The VCIT pursued “impact cases” that it
           defined by seriousness of the crime, the suspect’s record, and
           the likelihood of prosecution, but it did not develop a “worst of
           the worst” list.

       •   Community Outreach. The VCIT did not engage in community
           outreach activities.

       •   ATF Technology. The VCIT reported using the NTC for all
           investigations and routinely using the NIBIN and CGAB.

       •   Partnerships. At the time of the site visit, the VCIT did not
           include DEA or FBI Special Agents or Deputy U.S. Marshals.
           Six AUSAs worked on the VCIT full time. The VCIT reported
           working with several Florida law enforcement agencies,
           including the Tampa Police Department and the Hillsborough
           County Sheriff’s Office. In comparison, during the pilot period
           the VCIT included one Special Agent part time from both DEA
           and the FBI, one Deputy U.S. Marshal part time, and four
           AUSAs full time.

    ATF indicated in its January 2006 Best Practices report that the
Tampa VCIT was successful during the pilot period because the number


U.S. Department of Justice
Office of the Inspector General
                                                                      v
Evaluation and Inspections Division
of homicides committed with firearms decreased from 19 during June
through November 2003 to 9 during the same period in 2004
(53 percent) in the target area.

Tucson VCIT

       •   Target Area. The VCIT target area was 45 square miles of a city
           that spans approximately 226 square miles. ATF reassigned all
           of the Field Division’s 10 Special Agents to work full time on the
           VCIT.

       •   Targeted Offenders. The VCIT implemented a three-pronged
           approach, which included utilizing a “worst of the worst” list to
           target recently released violent offenders, initiating
           investigations through undercover surveillance, and targeting
           potential straw purchasers or traffickers. 4

       •   Community Outreach. The VCIT did not engage in community
           outreach activities.

       •   ATF Technology. The VCIT used the NTC and NIBIN for some of
           its investigations, but often did not submit requests in a timely
           manner. The VCIT did not use the CGAB, but instead prepared
           its own crime gun reports so it could tailor them to its needs.

       •   Partnerships. At the time of the site visit, the VCIT did not
           include Special Agents from the DEA or the FBI, Deputy U.S.
           Marshals, or AUSAs. The VCIT reported working with
           Immigration and Customs Enforcement (ICE), the Arizona
           Department of Corrections, the Arizona Criminal Justice
           Commission, the Pima County Probation Department, and the
           Tucson Police Department. In comparison, during the pilot
           period the VCIT included one Special Agent part time from both
           the DEA and the FBI, one Deputy U.S. Marshal part time, and
           three AUSAs full time.

Philadelphia VCIT

       •   Target Area. During the pilot period, the VCIT target area was
           the Southwest Police Division, which encompasses 11 square

       4 Straw purchasers are individuals who purchase firearms for others who wish

to remain unidentified.


U.S. Department of Justice
Office of the Inspector General
                                                                           vi
Evaluation and Inspections Division
           miles, with an initial focus on the 2-square-mile 16th police
           district. The ATF Field Division initially assigned 18 Special
           Agents to the VCIT, including the entire Firearms Trafficking
           Group.

       •   Targeted Offenders. The VCIT initially developed a “worst of the
           worst” list, but after the first 6 weeks of operation, shifted its
           focus from individuals on the list to targeting known shooters
           (usually identified through confidential informants). The VCIT
           identified and pursued individuals or groups likely to retaliate
           in response to a shooting (usually the target of the shooting or
           associates of the victim).

       •   Community Outreach. Initially, VCIT personnel attended
           several community meetings, but discontinued their outreach
           effort.

       •   ATF Technology. VCIT personnel continued to use the NTC,
           NIBIN, and CGAB as they had prior to the creation of the VCIT.
           They indicated they would have liked to expand their use of the
           NIBIN, but local police resources were not sufficient to support
           expansion.

       •   Partnerships. The VCIT included a DEA Special Agent part
           time, no FBI Special Agents, and a Deputy U.S. Marshal full
           time. One AUSA worked on the VCIT full time. The VCIT
           reported working with several Pennsylvania law enforcement
           agencies.

      ATF indicated in its January 2006 Best Practices report that the
Philadelphia VCIT was successful during the pilot period because
homicides committed with firearms decreased from 12 during June
through November 2003 to 3 during the same period in 2004
(75 percent) in the target area.

Los Angeles VCIT

   •   Target Area. The VCIT target area was two local police divisions,
       covering 20 square miles, at the time of our visit. To form the
       VCIT, ATF reassigned an existing task force that included 10 ATF
       Special Agents plus personnel from other law enforcement
       agencies.



U.S. Department of Justice
Office of the Inspector General
                                                                     vii
Evaluation and Inspections Division
   •   Targeted Offenders. The VCIT identified targets through
       investigations, leads from ATF Special Agents, or confidential
       information, but did not have criteria for selecting targets or a list
       of “worst of the worst” offenders. The VCIT investigated firearms
       cases originating in the three police jurisdictions that composed
       the VCIT target area to determine whether the cases could be
       prosecuted in federal court.

   •   Community Outreach. The VCIT did not participate in community
       outreach activities.

   •   ATF Technology. The VCIT utilized the NTC, NIBIN, and CGAB,
       and frequently incorporated firearms tracing analysis into
       investigations. The VCIT also used the firearms tracing analysis
       developed at ATF’s Southern California Regional Crime Gun
       Center.

   •   Partnerships. At the time of the site visit, the VCIT did not include
       DEA or FBI Special Agents. One Deputy U.S. Marshal worked part
       time on the VCIT during the early stages of the initiative. One
       AUSA worked on the VCIT part time. The VCIT reported working
       with the Los Angeles Police Department (LAPD) and the California
       Department of Corrections. In comparison, during the pilot period
       the VCIT included one Special Agent part time from both the DEA
       and the FBI, one Deputy U.S. Marshal part time, and two AUSAs
       full time, as well as six LAPD officers full time and four part time.

      ATF indicated in its January 2006 Best Practices report that the
Los Angeles VCIT had not demonstrated success during the pilot period
because homicides committed with firearms increased from 72 during
June through November 2003 to 77 during the same period in 2004
(7 percent) in the target area.

Miami VCIT

       •   Target Area. The Miami VCIT operated within the entire Miami-
           Dade County area (including the City of Miami), an area of
           approximately 2,100 square miles. While pursuing cases from
           the entire target area, the VCIT attempted to focus on six widely
           scattered portions of it. Initially, ATF assigned several agent
           groups to the VCIT for a total of 25 Special Agents, but the
           groups also retained their regular law enforcement



U.S. Department of Justice
Office of the Inspector General
                                                                      viii
Evaluation and Inspections Division
           responsibilities. Subsequently, ATF increased the number of
           Special Agents on the VCIT to 34.

       •   Targeted Offenders. The VCIT focused on gun crimes
           committed rather than individuals in its targeted geographic
           area and did not use a “worst of the worst” list.

       •   Community Outreach. The VCIT did not engage in community
           outreach activities.

       •   ATF Technologies. The VCIT used the NTC to trace all guns and
           used the NIBIN extensively, but did not use the CGAB.

       •   Partnerships. The VCIT did not include Special Agents from the
           DEA or FBI, but did include one Deputy U.S. Marshal on a part-
           time basis. Three AUSAs worked on the VCIT full time. VCIT
           personnel told us that they also received support from the
           Secret Service, ICE, and the local police department. In
           comparison, during the pilot period the VCIT included 3 DEA
           Special Agents part time, 1 FBI Special Agent part time, 1
           Deputy U.S. Marshal part time, and 2 AUSAs full time, as well
           as 16 members of the Miami City and Miami Dade County
           police departments.

       ATF indicated in its January 2006 Best Practices report that the
Miami VCIT was successful during the pilot period because homicides
committed with firearms decreased from 36 from June through
November 2003 to 22 during the same period in 2004 (39 percent) in the
city itself (not the target area).

      Because of the inconsistency in operations that we were observing
during our five field visits, we conducted a survey of 19 VCIT
Coordinators 5 and additional research to assess how the 5 key elements
were implemented by the 14 VCITs we did not visit. We summarize
below our findings regarding the implementation of the 5 key elements of
the VCIT strategy across the 19 VCITs.




       5 We included 19 of the 20 VCITs in operation when our review began. We

excluded the New Orleans VCIT because of the effects of Hurricane Katrina on ATF’s
operations there.


U.S. Department of Justice
Office of the Inspector General
                                                                             ix
Evaluation and Inspections Division
Target Small Geographic Areas

       Eighteen of the 19 VCITs Coordinators who responded to our
survey considered “identifying and working within a defined target area”
a core or essential component of their VCIT initiative and stated that
their VCIT targeted or operated in a specific geographic area. However,
we found that the specific geographic areas varied greatly in size and
population.

      Overall, we found that 8 of the 19 VCITs targeted areas of 10
square miles or less, and 10 VCITs targeted areas ranging from 20 to
2,100 square miles. VCIT Coordinators reported that their VCITs
targeted “specific geographic areas” that varied greatly in size and
population. For example, two VCITs targeted entire cities, and one
targeted an entire county. The population in the VCIT target areas
ranged from 25,000 to 3 million residents.

      The VCIT Strategy also indicated that, consistent with targeting a
small geographic target area, VCITs should be composed of a small
number of ATF Special Agents. Specifically, the Strategy recommended
four Special Agents and a Supervisory Special Agent be included on the
VCIT. However, we found that ATF assigned an average of 10 Special
Agents to each of the 19 VCITs, with the actual number of Special Agents
ranging from 3 to 34.

Target the Worst Violent Offenders

      We found that 6 of the 19 VCITs (32 percent) used a “worst of the
worst” list and kept it updated to reflect arrests and newly identified
targets. Of the remaining 13 VCITs, 7 used a “worst of the worst” list,
but did not keep it updated, while 6 did not use such a list at all.

       In addition, the VCIT arrest data suggested that the VCITs might
not have focused on targeted individuals. According to the arrest data,
targeted individuals represented only about 20 percent of the total
number of arrests made by the VCITs. Although a key element of the
VCIT initiative was to target the worst offenders, from June 2004 through
May 2005, the VCITs reported making 3,592 arrests, of which only 746
were targeted individuals. We could not determine whether these 746
targeted individuals were the “worst of the worst” violent offenders in the
target areas because only 6 VCITs used up-to-date “worst of the worst”
lists and ATF did not require VCITs to document the definition of
“targeted individual” that they used to compile these data.


U.S. Department of Justice
Office of the Inspector General
                                                                   x
Evaluation and Inspections Division
Build Effective Working Relationships with Community Leaders

       In our survey of the 19 VCIT Coordinators, 11 reported engaging
in community outreach such as attending community meetings and
participating in neighborhood watch activities. Eight VCIT coordinators
did not report community relations as an essential part of their VCITs’
strategies.

      Three of the sites we visited were among the 11 that reported
they engaged in community outreach. However, during our site visits,
we found that none of the five VCITs actively participated in any
community outreach.

Utilize ATF’s Investigative Technology Resources

       We determined that VCITs did not consistently use the services of
the NTC, NIBIN, and CGAB to facilitate their investigations. For
example, according to NTC officials, six VCITs consistently used the
NTC to expedite gun tracings, seven VCITs used the NTC but not
consistently, and four VCIT cities’ use of the NTC actually declined after
ATF implemented the VCIT program. ATF officials told us that this
apparent decline in NTC use could be due to the failure of local VCITs
to flag all of their submissions to the NTC.

       We compared submissions to the NIBIN – the program that
collects and analyzes images of fired cartridge casings and bullets to
link specific firearms to criminal activity – by pilot VCIT cities for 6
months before VCIT implementation (January through June 2004) with
their submissions during VCIT operations (July through December
2004). We found that six VCIT cities submitted more images after VCIT
implementation, seven VCIT cities submitted fewer images, and two
cities did not submit any images to the NIBIN during 2004. Although
the purpose of VCITs was to intensify the focus on firearms crimes, we
concluded that over half of the VCIT cities made fewer submissions to
the NIBIN after ATF implemented local VCIT operations than prior to
initiation of the VCIT program.

       In response to our survey, 17 of the 19 VCIT Coordinators
(89 percent) stated that they used the CGAB – which analyzes firearm
trace, handgun sale, and firearm theft information to identify “crime
gun” patterns – on an ongoing basis as part of their VCIT strategies.
However, during our site visits to five VCIT cities, local VCIT personnel
stated they did not routinely use the CGAB. In fact, in three cities we
visited, ATF personnel and contract staff explained that they were

U.S. Department of Justice
Office of the Inspector General
                                                                    xi
Evaluation and Inspections Division
assigned to produce reports similar to those the CGAB provided. We
believe this to be an indication that the type of information the CGAB
produced was useful to VCITs, but that ATF had not tailored CGAB
reports to support VCIT operations.

Work in Partnership with Other Department Law Enforcement
Components

       Of the 19 VCIT sites, only 1 included representatives from the
DEA, FBI, and USMS; another 14 VCITs included a representative from
one or two of these agencies; and 4 VCITs had no representative from
any other Department law enforcement component. The VCIT
Coordinators reported that the DEA provided Special Agents to 7 VCITs,
the FBI provided Special Agents to 3 VCITs, and the USMS provided
U.S. Deputy Marshals to 14 VCITs. VCIT coordinators reported that
the USAOs provided AUSAs to 17 of the VCITs. See Table 1 on the next
page. We also found that when the DEA and USMS assigned personnel
to VCITs, the assigned personnel were often unaware of their expected
roles and did not always receive clear direction from either ATF or their
own agency regarding their expected duties. At only one of the five
sites we visited did personnel from either the DEA or USMS tell us that
they had a clear understanding of their role on the local VCIT.




U.S. Department of Justice
Office of the Inspector General
                                                                  xii
Evaluation and Inspections Division
       Table 1: Department of Justice Component Participation
                            DEA                  FBI             USMS               USAO

                       Full      Part     Full         Part   Full    Part      Full       Part
 VCIT City             Time      Time     Time         Time   Time    Time      Time       Time
 Hartford                   0        0         0          0       2        0        0           0
 Tampa                      0        0         0          0       0        1        4           0
 Baltimore                  0        0         0          0       0        2        0           2
 Tucson                     0        1         0          0       0        1        2           0
 Fresno                     0        0         0          0       1        0        1           1
 Camden                     1        0         0          0       0        1        0           1
 Philadelphia               0        0         0          0       0        0        1           0
 Tulsa                      0        0         1          0       0        2        1           1
 Columbus                   0        0         0          0       0        1        1           4
 Washington,
 DC/No. Va.                 0        0         0          0       0        0        0           0
 Richmond                   0        1         1          0       0        0        0           1
 Greensboro                 0        1         0          0       0        1        1           0
 Los Angeles                0        0         0          0       0        1        0           1
 Houston                    0        1         0          0       0        1        0           3
 Las Vegas                  0        1         0          0       0        2        1           0
 Albuquerque                0        0         0          0       1        0        2           2
 Miami                      0        5         0          1       0        1        4          16
 Chattanooga                0        0         0          0       0        0        0           3
 Pittsburgh                 0        0         0          0       0        0        2           0
     Total                  1       10         2          1       4       14       20          35
 Note: Survey data are not always consistent with the data we report from our site visit
 interviews.
 Source: OIG VCIT Coordinator Survey


      ATF did not address local conditions in the site selection
process and, contrary to the VCIT Strategy, placed VCITs in areas
with decreasing violent crime and areas without sufficient
cooperation with local law enforcement.

       We found that ATF and ODAG officials selected cities to participate
in the VCIT initiative without seeking input from ATF Field Division
personnel who were most familiar with local crime conditions. Without
the advice of ATF field personnel, ODAG and ATF officials often selected
locations for the VCIT pilot test that did not reflect ATF’s emphasis on
targeting violent crime “hot spots.” We found that in some of the selected
target areas violent crime was decreasing or already at a low level. We


U.S. Department of Justice
Office of the Inspector General
                                                                                        xiii
Evaluation and Inspections Division
also found that ATF did not ensure that the pilot sites would receive
cooperation from local law enforcement. For example, in some areas,
local authorities were not willing to give ATF the local crime data it
needed to monitor progress and evaluate the impact of the VCIT initiative
on violent crime.

ATF did not provide sufficient direction and oversight to its Field
Divisions to ensure that local VCITs implemented the key elements
of the initiative.

       We found that ATF officials did not develop policies and procedures
for incorporating the five key elements that differentiated VCIT from
routine ATF enforcement operations either before or during the pilot
period. ATF also did not provide resource materials or training on
implementing the VCIT key elements to ATF Field Division staff or
personnel from federal or local partner agencies prior to initiating VCIT
Operations. The ATF Field Operations staff who have the authority and
responsibility to oversee the Field Divisions’ operations did not provide
written operational guidance regarding how the VCIT Strategy should be
implemented. All of the VCIT Coordinators we interviewed told us that
ATF Headquarters officials left it to Field Division managers to develop
their local VCIT strategies. After the pilot period, in August 2005, ATF
Headquarters personnel met with VCIT Coordinators to discuss local
operations, and in January 2006, ATF published the Best Practices
report, which stated that “this analysis will be used to strengthen future
VCIT deployments.” However, ATF did not provide specific policies or
guidance for implementing the identified practices.

       Because of the lack of operational guidance from ATF
Headquarters, local VCIT activities were often a continuation of ATF
enforcement activities that had been under way prior to VCIT
implementation. ATF Field Division managers and Special Agents in two
of the cities told us that, except for working in target areas, their VCITs’
activities were indistinguishable from their Field Divisions’ previous
routine operations.

ATF did not develop an adequate evaluation plan, leaving it unable
to demonstrate the effectiveness of the VCIT initiative.

       We found that ATF has not developed an adequate evaluation plan
to determine the effectiveness of the VCIT initiative. Although ATF’s VCIT
Strategy clearly stated the importance of determining the effectiveness of
the initiative and its impact on homicides and all violent crimes
committed with firearms, ATF Headquarters officials did not implement a

U.S. Department of Justice
Office of the Inspector General
                                                                    xiv
Evaluation and Inspections Division
program-wide evaluation plan that could accomplish this objective. ATF
collected standard measures of law enforcement activity – such as
arrests – that, alone, were not adequate to evaluate the implementation
or effectiveness of a specific strategy such as VCIT. ATF did not collect
and analyze the data necessary to identify and correct problems in
implementing VCIT’s key elements or in evaluating their effectiveness.
For example, ATF did not collect data on the criminal histories of the
offenders arrested; prosecution and sentencing of VCIT arrestees; VCITs’
use of firearm technologies; or data on personnel and other resources
provided to VCITs by other Department components.

       ATF Headquarters officials also recognized the importance of
conducting local evaluations of VCIT operations in each city, but they did
not provide the Field Divisions with guidance on how to do so. When we
examined the local evaluations that the VCIT Coordinators submitted to
ATF Headquarters, we found that they described in narrative fashion
local lessons learned. Few reports provided quantitative or qualitative
data documenting the effectiveness of the activities they described. For
example, reports did not provide data on the characteristics (e.g.,
criminal histories) of the individuals VCITs arrested or the investigative
technologies VCITs used in investigations. None of the reports had
documentation on the number of VCIT arrestees prosecuted or the length
of the sentences handed down for those who were convicted. If the Field
Divisions had reported these types of data, ATF could have identified and
corrected gaps in implementing VCIT’s key elements and in evaluating
their effectiveness.

ATF’s Claim of VCIT Success Is Based on Insufficient Data.

       In its January 2006 Best Practices report, ATF compared the
number of homicides committed with firearms before and after
VCIT implementation in the 15 pilot cities. ATF reported that the
pilot initiative was a success because the number of homicides
committed with firearms in the VCIT target areas decreased
compared with the number of homicides in the same 6-month
period of the preceding year in 13 of the 15 pilot cities.

       However, our analysis of the data in the ATF report does not
support this conclusion. We found that ATF based its analysis on
insufficient data and faulty comparisons. ATF inappropriately
used city-wide data rather than target area data for 8 of the 15
VCITs and, therefore, could not demonstrate the impact of the
VCIT on homicides committed with firearms for half of the VCITs.
Moreover, the number of homicides committed with firearms in

U.S. Department of Justice
Office of the Inspector General
                                                                  xv
Evaluation and Inspections Division
some of the target areas where ATF implemented VCITs was
relatively small, generally ranging from 2 to 32, with the majority
under 20 during a 6-month period. Therefore, percentage
decreases reported by ATF appear dramatic but actually reflect
small changes in the number of homicides committed with
firearms, making it difficult to draw conclusions about the
effectiveness of the VCIT initiative.

      For example, ATF reported that in Albuquerque, homicides
committed with firearms in the target area decreased by 50 percent –
from 4 between June and November 2003 to 2 during the same period in
2004. In addition, the comparison of data from only two points in time,
2003 and 2004, was not consistent with accepted standards for trend
analysis. 6

       We believe that a better measure of the effectiveness of the VCIT
initiative would have been to compare the number of violent firearms
crimes (instead of only homicides committed with firearms) in the VCIT
target areas for the same periods before and after the initiative was
implemented. First, the change in the number of violent firearms crimes
is a standard, agency-wide ATF performance measure. Second, the
number of violent firearms crimes in a VCIT target area is a large
number, ranging from 107 to 4,056, making analyses of the data more
reliable. Furthermore, according to the VCIT Strategy, ATF intended to
measure the effectiveness of VCITs not only by the number of homicides
committed with firearms, but also by the total number of homicides, the
number of violent crimes, and the number of violent firearms crimes.

       Although a primary goal of the VCIT initiative was to reduce violent
firearms crime, our analysis of data that ATF provided for target areas in
six pilot cities did not show that the VCITs had done so. Tampa had
experienced a decrease in violent firearms crimes before VCIT was
implemented there – from 278 in 2002 to 257 in 2003 – followed by a
sharper decrease to 107 in 2004 after VCIT implementation. Greensboro
experienced an increase in violent crimes committed with firearms before
VCIT implementation, followed by a slight decrease during VCIT
implementation. Los Angeles showed a decrease that began before VCIT
was implemented and continued after VCIT implementation, as did
Chattanooga. See Table 2. In two VCIT cities, Albuquerque and


       6 The Baldrige National Quality Improvement Program of the National Institute

of Standards and Technology establishes three points in time as the minimum for a
trend analysis.


U.S. Department of Justice
Office of the Inspector General
                                                                            xvi
Evaluation and Inspections Division
Philadelphia, violent firearms crime increased after VCIT was
implemented. A comparison of high-crime areas with VCITs to similar
high-crime areas without VCITs would constitute a stronger evaluation
methodology.

 Table 2: Violent Crimes Committed with Firearms in Target Areas
                                       2002                  2003           2004
             City
                                     June-Nov.             June-Nov.      June-Nov.
    Albuquerque                               256                   188         191
   Chattanooga                              1,149                   346         N/A
   Greensboro                                 334                   353         351
   Los Angeles                              2,338                 1,863        1,731
   Philadelphia                             3,581                 3,886        4,056
   Tampa                                      278                   257         107
          Total                             7,936                 6,893        6,436

Note: These data were provided to ATF by the local police departments.
Source: ATF data



CONCLUSION AND RECOMMENDATIONS

       Although we believe ATF developed sound objectives for the VCIT
Strategy to combat violent firearms crime, ATF did not implement that
Strategy. This was primarily due to ATF’s inconsistent direction to and
oversight of its Field Divisions on adapting the VCIT Strategy to local
operations. Most VCITs inconsistently incorporated the key elements
that were to differentiate the initiative from ATF’s day-to-day enforcement
operations. Further, ATF did not develop an adequate evaluation
strategy to measure the performance or impact of the VCIT initiative, and
ATF’s analysis of the data it collected does not support its claims of
success. As a result, although the Strategy on paper appears to be a
reasonable and effective approach, after 24 months of operations and the
allocation of more than $35 million in reprogrammed funds, general
operating funds, and funds appropriated for VCIT, ATF cannot
definitively show whether the initiative successfully reduced firearms
crime in areas with high levels of violent crime.

      For FY 2006, ATF received $20 million to continue and expand the
VCIT initiative. To maximize the use of these funds and to inform future
funding decisions, we believe that ATF should implement the initiative

U.S. Department of Justice
Office of the Inspector General
                                                                              xvii
Evaluation and Inspections Division
consistent with its VCIT Strategy and in a manner that will allow ATF to
determine whether the Strategy is effective in reducing violent firearm
crime in specific areas. To accomplish this, we recommend that ATF:

       1. Establish specific operational guidelines for VCIT
          implementation, and provide training based on these guidelines
          for ATF Special Agents in Charge and VCIT Coordinators on
          tailoring the VCIT initiative to local crime problems.

       2. Develop and implement a pre-deployment assessment for
          prospective VCIT locations to determine the potential
          applicability of VCIT to local violent crime problems.

       3. Develop and implement an adequate evaluation strategy to
          assess VCIT performance and impact on violent firearms crime.

       4. For existing VCITs, where possible, and for future VCITs,
          establish interagency agreements with federal and local partner
          agencies that define resource commitments and operational
          responsibilities.

       5. Establish management authority and responsibility for
          overseeing the implementation and evaluation of local VCIT
          operations in accordance with the VCIT Strategy and the
          guidelines developed in response to Recommendation 1.




U.S. Department of Justice
Office of the Inspector General
                                                                  xviii
Evaluation and Inspections Division
                                TABLE OF CONTENTS


LIST OF ACRONYMS

BACKGROUND ............................................................................... 4

PURPOSE, SCOPE, AND METHODOLOGY ...................................... 11

RESULTS OF THE REVIEW ........................................................... 13


       ATF’S VCIT Strategy ..................................................................     13
       Selection of VCIT Locations .......................................................        34
       ATF Direction and Oversight .....................................................          36
       Evaluation Plan ........................................................................   38
       ATF’s Claim of VCIT Success Is Based on Insufficient Data .......                          41


CONCLUSION AND RECOMMENDATIONS ...................................... 45

APPENDIX      I:     VCIT Data Collection Form ..................................                 47
APPENDIX      II:    VCIT Coordinator Survey .....................................                48
APPENDIX      III:   VCIT Performance Report ....................................                 58
APPENDIX      IV:    ATF’s Response to the Draft Report .....................                     59
APPENDIX      V:     The OIG’s Analysis of ATF’s Response .................                       74




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                              LIST OF ACRONYMS


       ATF           Bureau of Alcohol, Tobacco, Firearms and Explosives
       AUSA          Assistant United States Attorney
       CGAB          Crime Gun Analysis Branch
       DEA           Drug Enforcement Administration
       EOUSA         Executive Office for United States Attorneys
       FBI           Federal Bureau of Investigation
       FY            fiscal year
       ICE           Immigration and Customs Enforcement
       JMD           Justice Management Division
       LAPD          Los Angeles Police Department
       MOU           Memorandum of Understanding
       MPD           Miami Police Department
       NTC           National Tracing Center
       NIBIN         National Integrated Ballistics Information Network
       OIG           Office of the Inspector General
       ODAG          Office of the Deputy Attorney General
       PPD           Philadelphia Police Department
       PSN           Project Safe Neighborhoods
       SAC           Special Agent in Charge
       TPD           Tampa Police Department
       UCR           Uniform Crime Reports
       USAO          United States Attorney’s Office
       USMS          United States Marshals Service
       VCIT          Violent Crime Impact Team




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND


       In June 2004, the Department of Justice and the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF) established the Violent Crime
Impact Team (VCIT) initiative as a 6-month pilot program designed to
reduce violent crime in 15 cities. The goal of the VCIT initiative was to
“decrease within six months, the number of homicides, number of firearms-
related homicides, number of violent crimes and number of violent firearms
crimes” in target areas in those 15 cities. 7 In December 2004, ATF extended
the program indefinitely and, in April 2005, expanded it to include a total of
20 cities.

       There were two primary purposes of the VCIT initiative, as
articulated by the Office of the Deputy Attorney General (ODAG) and ATF.
The first was to reduce homicides and violent firearms crimes in cities
where homicide and violent crime rates had not followed the national
trend downward. The second was to test the effectiveness of the VCIT
strategy in reducing, rather than displacing, the incidents of firearms-
related violence in neighborhoods and communities by identifying,
targeting, and arresting the “worst of the worst” violent offenders in
specific targeted areas referred to as hot spots. The VCIT initiative was
designed to build on regular law enforcement operations and the
Department’s Project Safe Neighborhoods. 8

       To assist in implementing the VCIT program, ODAG and ATF sought
the participation of the Drug Enforcement Administration (DEA), the
United States Marshals Service (USMS), the Federal Bureau of
Investigation (FBI), and the Executive Office for United States Attorneys
(EOUSA). The VCIT pilot program initially was funded by $499,000 in
reimbursable funding from the Department’s Justice Management
Division (JMD). In FY 2005, ATF operated 20 VCITs using $6.8 million
reprogrammed from other ATF activities and general operating funds. In
fiscal year (FY) 2006, ATF received its first appropriation of $20 million
specifically to continue and expand the VCIT initiative.



       7  “Justice Department Announces New Violent Crime Reduction Initiative,” press
release, U.S. Department of Justice, June 24, 2004.

       8 The Department’s Office of Justice Programs initiated Project Safe Neighborhoods

in 2001 to link federal, state, and local law enforcement, prosecutors, and community
leaders together in a multifaceted approach to deterring and punishing gun crime.


U.S. Department of Justice
Office of the Inspector General
                                                                                      2
Evaluation and Inspections Division
The VCIT Strategy

       In response to ODAG’s direction, ATF developed a 32-page document
entitled Violent Crime Impact Teams: A Comprehensive Strategy (VCIT
Strategy) in which it described the mission, expectations, organization, and
implementation of the initiative. According to the VCIT Strategy, the
initiative’s mission is to “reduce armed violence in the locations that are not
following the national trend, through the use of geographic targeting,
aggressive investigation, and prosecution of those responsible.” According
to the VCIT Strategy’s mission statement, “The ultimate goal of this strategy
is to ensure that the incidents of firearms-related violence is [sic] thoroughly
reduced, not displaced to adjacent neighborhoods.”

       The VCIT Strategy incorporated strategies the National Institute of
Justice reported to be effective or promising in the 1998 publication,
Preventing Crime: What Works, What Doesn’t, What’s Promising. These
strategies included incarcerating the “worst of the worst” offenders and
identifying and targeting neighborhoods with high levels of violent crime
referred to as hot spots. The VCIT Strategy also incorporated elements of
other Department violent crime control initiatives such as Project Safe
Neighborhoods and Operation Weed and Seed, as well as local programs
such as Operation Ceasefire in Los Angeles and the Directed Patrol Project
in Indianapolis. 9 The concept underlying the VCIT program was to
concentrate law enforcement in geographic target areas, arrest and
prosecute the worst violent offenders in the target area, involve the
community in the strategy, and coordinate law enforcement efforts across
agencies. Consistent with these concepts, ATF’s VCIT Strategy included
specific objectives that VCITs were expected to accomplish to reduce violent
crime:

       •   Target Specific Geographic Areas. According to ATF’s VCIT
           Strategy, VCITs were to target specific hot spots in which violent
           crime was regularly occurring. Examples of target areas were
           neighborhoods and police precincts that had high rates of violent
           crime. The VCIT Strategy stated that VCITs should identify these

       9  The Department initiated Operation Weed and Seed in 1992 to help prevent,
control, and reduce violent crime, drug abuse, and gang activity in designated high-crime
neighborhoods across the country. Operation Ceasefire was developed in response to gang-
related gun violence in the Hollenback area of Los Angeles. Multiple law enforcement
agencies used a coordinated strategy to increase police patrols and surveillance of gang
members. The Indianapolis Police Department implemented the Directed Patrol Project in
1997 to reduce violent crime by proactively patrolling target areas with a special emphasis
on locating and seizing illegally possessed firearms.


U.S. Department of Justice
Office of the Inspector General
                                                                                       3
Evaluation and Inspections Division
           target areas using technology and human intelligence. The
           strategy also indicated that ATF intended to assign a small number
           of Special Agents – four Special Agents and a Supervisory Special
           Agent were recommended – to target the small geographic areas.

       •   Target the Worst Violent Offenders. ATF’s VCIT Strategy
           recommended that VCITs develop lists of the “worst of the worst”
           violent offenders to target the most serious violent offenders in the
           target area. Targeting the most violent offenders is a key difference
           between VCIT operations and traditional ATF enforcement
           operations, which typically target firearm crimes. This objective
           was based on the theory that most violent crime in a small
           geographic area is committed by a small group of violent offenders.

       •   Utilize ATF’s Investigative Practices. The VCIT Strategy stated that
           VCITs were to disrupt and dismantle criminal activities through
           the use of certain ATF investigative practices. To accomplish this
           objective, VCITs were to assist local officers by responding rapidly
           to firearms-related violent crime and utilizing ATF Industry
           Operations Investigators (Inspectors) as a resource. Inspectors
           verify that licensed firearms dealers comply with federal
           regulations and provide accurate information to ATF regarding
           firearms sales. This objective also included the use of undercover
           operations and confidential informants.

       •   Prosecute Violent Offenders Aggressively. The VCIT Strategy stated
           that VCITs should arrest and ensure the prosecution of “a wide
           range of firearms offenders,” such as armed career criminals,
           armed violent offenders, narcotics traffickers, and individuals
           illegally possessing firearms. To accomplish this objective, VCITs
           were to work with federal and state prosecutors to determine the
           jurisdiction that offered the maximum possible penalty for these
           firearm offenders.

       •   Work with Community Leaders. ATF’s VCIT Strategy called for
           VCITs to develop effective relationships with community leaders to
           facilitate a “free flow” of information that could help them identify
           and apprehend violent offenders. In a May 2005 request to
           Congress to reprogram funds, ATF stated that VCITs “will foster
           relationships with the affected communities through neighborhood
           watch programs and attendance at community meetings and social
           events.”



U.S. Department of Justice
Office of the Inspector General
                                                                             4
Evaluation and Inspections Division
       •   Evaluate the VCITs’ Impact. According to the VCIT Strategy, the
           following measures would be used to assess the impact of the
           VCITs: reductions in the number of homicides, firearms-related
           homicides, violent crimes, and violent firearms crimes.
           Comparisons would be made between crime rates during the pilot
           period and crime rates for the same period during the previous
           year. ATF expected the VCITs to monitor their results and submit
           data to ATF Headquarters on a monthly basis using data
           submission forms ATF Headquarters provided. ATF initially
           required weekly data submissions. (See Appendix I for a copy of
           the current data submission form.) ATF also expected its Field
           Divisions to conduct local evaluations of VCIT operations.

       At the conclusion of the pilot period, and concurrent with the OIG
review, ATF initiated its own review of best practices across the 15 pilot
cities. ATF identified the following VCIT best practices: (1) set clear goals
and measure performance; (2) develop collaborative partnerships with local
police; (3) target the “worst of the worst” criminals; (4) use the full array of
intelligence assets; (5) maintain a fluid and dynamic approach when
targeting offenders and hot spots; (6) conduct proactive street enforcement
with local police in targeted hot spots; (7) deploy resources during peak
hours of criminal activity; (8) investigate the sources of firearms linked to
violent crime; (9) prioritize prosecution of defendants linked to targeted hot
spots; and (10) publicize success stories.

VCIT Technology Resources

       The VCIT Strategy called for VCITs to expand the use of the National
Tracing Center (NTC), the National Integrated Ballistics Information Network
(NIBIN), and the Crime Gun Analysis Branch (CGAB) to analyze firearms
evidence and help solve crimes. ATF, in its nomination of the VCIT
development team for the Attorney General’s 2005 Award for Outstanding
Contributions to Community Partnerships for Public Safety, described VCIT
as a “technology-based firearms initiative.” In a briefing for the Office of
Management and Budget in October 2004, ATF stated, “The utilization of
these new technologies, in concert with local technology, is essential in
order to suppress violent criminals in the community. These tools must be
in place to accomplish the goals of this initiative.” The technological tools
included the following resources.

National Tracing Center

      The NTC traces serial numbers of firearms used in crimes and
recovered at crime scenes to determine the original point of sale of a

U.S. Department of Justice
Office of the Inspector General
                                                                              5
Evaluation and Inspections Division
firearm and its original purchaser. In addition, the NTC frequently traces
a firearm to the most recent purchaser. ATF encourages law enforcement
agencies to submit all recovered firearms for tracing so that ATF can
effectively identify potential sources of illegal firearms trafficking. To
support the VCIT initiative, the NTC implemented a policy that classifies
all firearms trace submissions from VCITs as “urgent” and gives these
requests the center’s highest priority.

National Integrated Ballistics Information Network

       The NIBIN is a networked database of fired cartridge casing and
bullet images developed to assist firearms examiners with linking criminal
activity to specific firearms. ATF encouraged VCITs to utilize the NIBIN to
aid in the investigations of firearms-related violent crimes.

Crime Gun Analysis Branch

      The CGAB analyzes data from successful firearms traces, reports of
multiple handgun sales, and reports of firearms thefts to identify patterns
that may not be apparent from information in a single trace. For example,
the CGAB identifies “crime gun” patterns, crimes associated with
firearms, source location, possessor information, and “time to crime”
information. 10 To support the VCIT initiative, the CGAB developed “crime
gun” reports for the 15 original VCIT cities and provided these reports,
many of which focus on VCIT target areas, to VCIT cities twice a year.

VCIT Personnel Resources

       According to the VCIT Strategy, each VCIT “will be comprised of
Federal special agents and support personnel working with State and
local law enforcement . . . and will consist of the following” ATF personnel:

       •    1   ATF   Resident Agent in Charge,
       •    4   ATF   Special Agents,
       •    1   ATF   Investigative Analyst, and
       •    1   ATF   Intelligence Research Specialist.

       10 “Time to crime” means the elapsed time between the purchase of a firearm and its
use in the commission of a crime. A short “time to crime” is an indicator that the gun was
purchased with the intent of using it in some form of illegal activity because most firearms
purchased legally for legitimate purposes – such as hunting, sport shooting, or self or home
defense – remain with the original purchaser for a long period of time. Firearms obtained
through straw purchases or from licensed firearms dealers who sell firearms illegally are
more likely to be used in criminal activity.


U.S. Department of Justice
Office of the Inspector General
                                                                                        6
Evaluation and Inspections Division
      The VCIT Strategy made the Resident Agent in Charge the
supervisory Special Agent in Charge of each VCIT. ATF Special Agents
were charged with “targeting the most egregious criminals and bringing
them to justice.” The Investigative Analyst and Intelligence Research
Specialist was to provide investigative and intelligence support to the
VCIT. According to the VCIT Strategy, ATF intelligence units and
Inspectors were also to provide support to the initiative.

      The VCIT Strategy stated that VCITs would also consist of personnel
from partner agencies, including:

       •   State and local police officers,
       •   FBI Special Agents,
       •   DEA Special Agents,
       •   USMS Deputy U.S. Marshals,
       •   State and federal probation and parole officers,
       •   An Assistant United States Attorney (AUSA), and
       •   State prosecutors.

       The VCIT Strategy described the roles and responsibilities for each
of these partners and suggested additional resources that the components
listed above could contribute to a VCIT as needed. In addition, the VCIT
Strategy recommended the VCITs include personnel from the Internal
Revenue Service, Department of Housing and Urban Development, Border
Patrol, Federal Bureau of Prisons, and state and county jails.

       ODAG officials stated that interagency partnerships were envisioned
as a key component of the VCIT initiative and that the VCITs were to serve
as an intelligence and information-sharing bridge for the participating
Department agencies, as well as a mechanism to integrate agency-specific
expertise. Prior to announcing the VCIT initiative, ODAG and ATF
Headquarters officials met with officials at the DEA, USMS, and FBI to
solicit these agencies’ participation. High-level officials at each of these
agencies agreed to provide assistance as resources allowed. The Deputy
Attorney General spoke with the United States Attorneys for the VCIT
cities before the initiative began, and they also agreed to work on the
initiative. In addition, ATF Headquarters officials urged Field Division
managers in VCIT cities to solicit the participation of other federal, state,
and local law enforcement agencies.

VCIT Funding Resources

      The VCIT pilot program initially was funded by reprogrammed and
general operating funds from ATF. ATF secured $499,000 from JMD for

U.S. Department of Justice
Office of the Inspector General
                                                                            7
Evaluation and Inspections Division
reimbursable FY 2004 expenses related to the implementation and pilot
period of the VCIT initiative. In June 2004, after the VCIT initiative was
announced, ATF asked to reprogram funds from a gang resistance
program to the VCIT initiative. JMD approved the reprogramming of
$3.7 million. ATF then obtained approval for the $3.7 million
reprogramming from the House and Senate Appropriations
Subcommittees. The Senate subsequently approved the reprogramming
of the “full, un-obligated” balance of ATF’s gang resistance program
($6.8 million) to the VCIT initiative. 11 On June 30, 2005, the House of
Representatives approved the total reprogramming of $6.8 million to fund
the VCIT initiative.

      In addition to the reprogrammed funds, during the initial year of
VCIT operations ATF directed general funds toward expenditures such as
Special Agent salaries, office space, equipment, and miscellaneous
resources. ATF also received $20 million in 2006 specifically for VCIT.
ATF reported that, as of March 30, 2006, it had spent a total of
$35.8 million on VCIT activities.

      For the FY 2006 budget cycle, ATF requested and the Office of
Management and Budget approved $30 million for the VCIT initiative.
The funding request included an additional 75 Special Agent positions, 25
Industry Operations Investigators, and 50 technical support positions.
Congress ultimately provided $20 million for the VCIT program in the
FY 2006 appropriation. In the FY 2007 budget request to Congress, the
President recommended that ATF receive $16 million for the year and
deploy VCITs to 15 additional cities.

VCIT Management

      At ATF Headquarters, the responsibility for directing VCIT
operations is assigned to the Assistant Director for Field Operations, while
program development and evaluation activities are the responsibility of
the VCIT Program Manager. Among the Program Manager’s
responsibilities are the collection of performance data from the VCITs and
compilation of the data into reports for ATF Headquarters officials.
Figure 1 depicts ATF’s management structure for the VCIT initiative.




      11 Funds were reallocated from the Gang Resistance and Education Training

program, which had been administratively transferred from ATF to the Office of Justice
Programs earlier in 2004.


U.S. Department of Justice
Office of the Inspector General
                                                                                         8
Evaluation and Inspections Division
                 Figure 1: ATF VCIT Management Structure


                                          ATF Director

                                            Deputy
                                            Director


                                                         Assistant Director
                      Assistant Director
                                                       Enforcement Programs
                       Field Operations
                                                            and Services

                       Deputy Assistant                  Deputy Assistant
                          Directors                         Director


                    Field                                 Chief, Firearms
                                  Special
                 Management                              Programs Division
                                 Agents in
                    Staff
                                  Charge
                                   (Field
                                 Divisions)            VCIT Program Manager



                                  VCIT
                               Coordinators


      Under ATF’s current organizational structure, the VCIT Program
Manager reports to the Chief of the Firearms Programs Division, who
reports to the Deputy Assistant Director and Assistant Director for
Enforcement Programs and Services. That Assistant Director, supported
by three Deputy Assistant Directors, oversees the Field Management Staff,
which is responsible for ensuring that programs developed by the
Enforcement Programs and Services staff, such as VCIT, are implemented.
The Field Management Staff directs VCIT operations through the relevant
Special Agents in Charge of the Field Divisions in the selected cities. The
Special Agent in Charge, in turn, directs VCIT Coordinators (who typically
are Supervisory Special Agents) through the Field Division’s management
structure.

Participating Cities

       ATF and ODAG officials told us that they selected cities to
participate in the VCIT initiative based on an examination of crime
statistics, including recent homicide and violent crime numbers. The 15
cities selected to participate in the initial phase of the VCIT initiative were

U.S. Department of Justice
Office of the Inspector General
                                                                              9
Evaluation and Inspections Division
Albuquerque, New Mexico; Baltimore, Maryland; Chattanooga, Tennessee;
Columbus, Ohio; Greensboro, North Carolina; Las Vegas, Nevada;
Los Angeles, California; Miami, Florida; Philadelphia, Pennsylvania;
Pittsburgh, Pennsylvania; Richmond, Virginia; Tampa, Florida; Tucson,
Arizona; Tulsa, Oklahoma; and Washington, D.C./Northern Virginia. (See
Figure 2.)

      In April 2005, ATF expanded the VCIT initiative to include Camden,
New Jersey; Fresno, California; Hartford, Connecticut; Houston, Texas;
and New Orleans, Louisiana. In September 2005, as part of the
Department’s response to Hurricane Katrina, the Attorney General
directed ATF to establish a VCIT in Baton Rouge, Louisiana. In October
2005, the Attorney General announced the initiation of a VCIT in Laredo,
Texas, as part of the Department’s response to violence along the United
States–Mexico border. In March 2006, the Attorney General announced a
new VCIT in Atlanta, Georgia.

                       Figure 2: Cities with VCITs as of March 2006




                                                                                                                                  Hartford
                                                                                                      Philadelphia
                                                                                       Pittsburgh

                                                                                 Columbus                                         Camden

  Fresno                                                                                         Richmond                    Baltimore

                                                                                                                            Washington/
                  Las Vegas                                                                         Greensboro
                                                                              Chattanooga                                  Northern Virginia
    Los Angeles
                                                         Tulsa
                              Albuquerque
                    Tucson
                                                                                            Atlanta
                                                                   Baton Rouge

                                                     Houston                  New Orleans


                                                          Violent Crime Impact Teams           Tampa
                                            Laredo
                                                                                                                   Miami
                                                             Original Cities                               Miami




                                                             Expansion Cities, April 2005
                                                           * Cities added after August 2005:
                                                             Atlanta, GA
                                                             Baton Rouge, LA
                                                             Laredo, TX




U.S. Department of Justice
Office of the Inspector General
                                                                                                                                               10
Evaluation and Inspections Division
                  PURPOSE, SCOPE, AND METHODOLOGY


Purpose

      The Office of the Inspector General (OIG) conducted this review to
assess ATF’s implementation of the VCIT initiative.

Scope

      To review the VCIT initiative, we focused on planning and
implementation documents from ATF, the USMS, the Department’s Criminal
Division, and EOUSA, including draft proposals, e-mails, and reports. The
scope of our review encompassed 19 of the first 20 VCITs. 12

Methodology

       Interviews. We conducted in-person and telephone interviews with
personnel from ATF Headquarters and ATF Field Divisions. Specifically, we
interviewed individuals from the Office of Field Operations, the Office of
Enforcement Programs and Services, and the Office of Strategic Intelligence
and Information, including staff at the NTC, NIBIN, and CGAB. In addition,
we spoke with two Special Agents assigned to ATF Headquarters who
worked on the development and initial implementation of the VCIT initiative.

      We conducted in-person and telephone interviews with personnel
from the DEA, FBI, and USMS with knowledge of VCIT operations in their
jurisdiction. We interviewed the former Deputy Attorney General and ODAG
personnel. We also conducted interviews with personnel from EOUSA who
assisted in recruiting AUSAs for the VCITs.

       Field Site Visits. We conducted our fieldwork from June 2005
through September 2005. As part of our fieldwork, we conducted in-person
interviews with personnel from ATF, DEA, USMS, and local USAOs, and
other federal, state, and local criminal justice partners in five VCIT cities:
Los Angeles, California; Miami, Florida; Philadelphia, Pennsylvania; Tampa,
Florida; and Tucson, Arizona.




        12 Due to the effects of Hurricane Katrina on ATF operations in New Orleans after

August 29, 2005, we decided not to consider New Orleans VCIT operations as part of our
review.


U.S. Department of Justice
Office of the Inspector General
                                                                                        11
Evaluation and Inspections Division
      Survey. We conducted an e-mail survey of ATF’s VCIT Coordinators
to determine VCIT staffing, law enforcement strategies, their views on the
VCIT initiative, and other relevant information. (See Appendix II for the
survey questionnaire.) All 19 VCIT Coordinators responded to the survey.

       Data. ATF provided us with historical violent crime data for the VCIT
cities; firearms tracing and ballistic imaging information for the VCIT cities;
and data related to VCIT performance, including arrests and seizures of
drugs and weapons. ODAG provided us with data compiled by the
Department’s Bureau of Justice Statistics used to determine VCIT site
selection. The DEA, USMS, and EOUSA provided us with data related to
staffing levels at VCIT locations. The FBI provided us with data related to
Safe Streets Task Forces operating in VCIT cities. The DEA provided us
with Mobile Enforcement Teams documents and reports.

       Background Research. Our background research on the VCIT
initiative included reviews of reports, congressional testimony and
appropriations, press releases, speech transcripts, and newspaper articles.




U.S. Department of Justice
Office of the Inspector General
                                                                             12
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


       The VCITs did not implement the key elements of ATF’s
       VCIT Strategy. While every VCIT in the 19 locations that
       we reviewed implemented some of the key elements of the
       strategy, no VCIT implemented all of the 5 key elements.
       Specifically, not all VCITs targeted small geographic areas
       and the worst violent offenders in those areas. Some VCITs
       did not work with community leaders. In addition, VCITs
       often did not make full use of ATF’s investigative
       technology resources or work as partners with other
       Department law enforcement components. As a result, ATF
       did not implement the VCIT initiative as envisioned by the
       Office of the Deputy Attorney General and ATF
       Headquarters, and as described in ATF’s VCIT Strategy.
       Also, the activities of the VCITs in most cities were
       indistinguishable from routine ATF law enforcement
       operations.


ATF’s VCIT Strategy

      Although ATF developed a detailed VCIT Strategy, we found that local
operations did not implement the Strategy’s five key elements as defined by
the OIG review team. Through our review of the VCIT Strategy, as well as
our interviews with the former Deputy Attorney General and ATF officials,
we identified five key elements that were essential to implementing the VCIT
Strategy. In interviews with the OIG, ATF officials said they expected that
these elements would be integrated into each local VCIT operation. The five
key elements and their implementation by local VCIT operations were:

       1. Target Small Geographic Areas. According to ATF’s VCIT Strategy,
          VCITs were intended to target specific small geographic areas
          within cities, referred to as hot spots, in which violent crime
          regularly occurred. The VCIT Strategy recommended assigning
          four Special Agents and one supervisor to concentrate on a target
          area.

       2. Target the Worst Violent Offenders. ATF’s VCIT Strategy
          recommended that VCITs develop lists of the “worst of the worst”
          violent offenders to target the most serious violent offenders in the
          target area. Targeting the most violent offenders is a key difference


U.S. Department of Justice
Office of the Inspector General
                                                                            13
Evaluation and Inspections Division
           between VCIT operations and traditional ATF enforcement
           operations, which typically target federal firearm crimes.

       3. Build Effective Working Relationships with Community Leaders.
          ATF’s VCIT Strategy called for VCITs to develop effective
          relationships with community leaders to facilitate a “free flow” of
          information that could help them identify and apprehend violent
          offenders.

       4. Utilize ATF’s Investigative Technology Resources. ATF’s VCIT
          Strategy called for VCITs to expand their use of the NTC, NIBIN,
          and CGAB to analyze firearms evidence and help solve crimes.

       5. Work in Partnership with Other Department Law Enforcement
          Components. ATF’s VCIT Strategy called for representatives from
          other federal law enforcement agencies, including DEA and FBI
          Special Agents, Deputy U.S. Marshals, and AUSAs, to be included
          on the VCITs. This approach was intended to integrate and focus
          the full capabilities of the Department on the target area.

VCIT Operations in Five Cities

      We visited five VCIT pilot cities (Tampa, Tucson, Philadelphia, Los
Angeles, and Miami) to assess in more detail how each ATF Field Division
had implemented the key elements of the VCIT Strategy. The following
sections describe our observations, together with the results that ATF
reported for each location.

Tampa VCIT

       •   Target Area. The Tampa VCIT focused on two neighborhoods in
           the Tampa Police Department’s (TPD) Districts Two and Three,
           which covered 7 square miles and had approximately 50,000
           residents. ATF designated an existing Special Agent group
           previously assigned to another ATF operation, supplemented by
           additional ATF Special Agents, for a total of 11 Special Agents
           assigned full time to the VCIT and 10 assigned part time. The
           Tampa VCIT designated two neighborhoods as hot spots, but the
           VCIT planned to expand to cover an increasingly large area. At the
           time of our visit, we were told that the VCIT planned to expand to
           Districts One and Four and parts of neighboring Hillsborough
           County.



U.S. Department of Justice
Office of the Inspector General
                                                                             14
Evaluation and Inspections Division
       •   Targeted Offenders. There was no list of “targets” developed
           because of TPD’s dissatisfaction with previous attempts to use
           such a list. According to the VCIT Coordinator, the Tampa VCIT
           pursued “impact cases,” which were defined by the seriousness of
           the crime, the suspect’s record, and the likelihood that the U.S.
           Attorney’s Office (USAO) in the district would accept the case. The
           VCIT Coordinator stated that the VCIT was very selective in the
           cases it pursued and that the VCIT relied heavily on a cadre of
           reliable confidential informants to identify individuals as suspects
           in shooting incidents.

       •   Community Outreach. According to the VCIT Coordinator, the
           VCIT was not involved in any community outreach activities.

       •   ATF Technology. The VCIT reported using the NTC for all firearms
           investigations and routinely using the NIBIN and CGAB as part of
           its operations. While the VCIT Coordinator told us that ATF and
           TPD submitted all firearms evidence for tracing, the NTC reported
           that 358 fewer trace submissions were requested in Tampa during
           the VCIT pilot period than during the same period in the previous
           year.

       •   Partnerships. At the time of the site visit, the VCIT did not include
           DEA or FBI Special Agents or Deputy U.S. Marshals. Six AUSAs
           worked on the VCIT full time. The VCIT reported working with
           several Florida law enforcement agencies, including the Tampa
           Police Department and the Hillsborough County Sheriff’s Office.
           By comparison, during the pilot period the VCIT included one
           Special Agent part time from both DEA and the FBI, one Deputy
           U.S. Marshal part time, and four AUSAs full time.

           The DEA Special Agent in Charge told us that the DEA had
           minimal involvement because he saw ATF as going after low-level
           drug violators who were accused of illegally possessing less than 5
           kilograms of illegal drugs. However, when DEA Special Agents
           encountered firearms, he said that they would call ATF. The FBI
           did not assign personnel to the VCIT. The USMS had originally
           assigned a Deputy U.S. Marshal full time to the VCIT. However,
           the Deputy U.S. Marshal stated that he was never called upon to
           participate. The USMS later designated another Deputy U.S.
           Marshal as a point of contact to handle VCIT requests for
           assistance. At the time of our site visit, the VCIT had not yet asked
           the USMS to participate in a law enforcement operation.


U.S. Department of Justice
Office of the Inspector General
                                                                             15
Evaluation and Inspections Division
           VCIT personnel reported that they worked occasionally with a
           Department of Homeland Security U.S. Immigration and Customs
           Enforcement (ICE) task force and with several state and local
           agencies.

           The VCIT worked with ICE Special Agents whenever it identified
           illegal aliens associated with violent crime. In addition, the VCIT
           worked with the state department of law enforcement in sharing
           and analyzing intelligence. Also, the state department of
           corrections occasionally provided information on old cases and
           parolees who served time for violent crime. In the past, ATF had
           worked closely with TPD’s Quick Uniformed Attack on Drugs
           street-level police officers. However, a TPD District Captain told us
           that the new Chief of Police was not task force oriented. Most TPD
           officers serving on task forces had been pulled back to patrol
           duties and made available to the VCIT on an as needed basis, she
           said.

      ATF indicated in its January 2006 Best Practices report that the
Tampa VCIT was successful during the pilot period because the number of
homicides committed with firearms decreased from 19 during June through
November 2003 to 9 during the same period in 2004 (53 percent) in the
target area.

Tucson VCIT

       •   Target Area. The Tucson VCIT’s target area was the Tucson Police
           Department’s South and West Divisions, covering 45 square miles
           (of a city that spans approximately 226 square miles) and
           approximately 120,000 residents. The ATF Field Division assigned
           the Area Office’s 10 Special Agents to work full time on the VCIT.

       •   Targeted Offenders. The VCIT utilized a “worst of the worst” list of
           52 individuals identified by a Special Agent as having violent
           criminal histories. To develop the list, the Special Agent narrowed
           a list of almost 1,000 possible targets provided by the local police
           department to a list of 300 using violent felony convictions as his
           criterion. He further refined his list to 52 individuals.

           The VCIT used a three-pronged approach: (1) targeting recently
           released violent offenders through the use of the “worst of the
           worst” list; (2) initiating proactive investigations, such as
           undercover surveillance; and (3) identifying and targeting potential


U.S. Department of Justice
Office of the Inspector General
                                                                             16
Evaluation and Inspections Division
           straw purchasers or traffickers through the use of ATF’s
           investigative technology resources. 13 The Assistant Special Agent
           in Charge stated that the approach was very similar to the Violence
           Impact Program he used in Phoenix. The Tucson Police
           Department and Pima County Attorney’s Office officials said they
           viewed VCIT operations as an extension of ATF’s Project Safe
           Neighborhoods activities already going on in the city.

       •   Community Outreach. The VCIT did not participate in community
           outreach activities. Tucson Police Department officials, however,
           stated that they had mentioned the existence of the VCIT group at
           community meetings.

       •   ATF Technology. The VCIT did not frequently utilize ATF firearms
           technologies as part of its strategy. Trace requests for all firearms
           recovered in VCIT target area crimes were not submitted to the
           NTC in a timely manner, and evidence submissions to the NIBIN
           for firearms crimes in the target areas were infrequent. According
           to VCIT members, the Tucson Police Department was unable to
           submit timely information on all of its recovered firearms to ATF or
           submit ballistics evidence for imaging because of staffing
           shortages. The Tucson Police Department used its own analyst to
           create crime gun reports similar to those created for the VCIT by
           the CGAB.

       •   Partnerships. At the time of the site visit, the VCIT did not include
           Special Agents from the DEA or FBI, Deputy U.S. Marshals, or
           AUSAs. The VCIT reported working ICE, the Arizona Department
           of Corrections, the Arizona Criminal Justice Commission, the Pima
           County Probation Department, and the Tucson Police Department.
           By comparison, during the pilot period the VCIT included one
           Special Agent part time from both the DEA and FBI, one Deputy
           U.S. Marshal part time, and three AUSAs full time.

           At the outset of the VCIT initiative, a Special Agent from the DEA
           had been assigned to the VCIT. The agent spent about 2 weeks
           working full time with the VCIT, but because most VCIT cases had
           no drug nexus, he eventually returned to his own office on a full-
           time basis. The FBI did not assign personnel to the VCIT.
           Managers at the local USMS office stated that, although they were

      13 Straw purchasers are individuals who purchase firearms for others who wish to

remain unidentified.


U.S. Department of Justice
Office of the Inspector General
                                                                                    17
Evaluation and Inspections Division
           aware of the VCIT initiative, they did not have the resources to
           assign personnel to the VCIT.

           The VCIT did have a partnership with ICE, the state department of
           corrections, and the Tucson Police Department. A Special Agent
           from ICE was on call to assist VCIT members who encountered
           illegal immigrants with firearms or those VCIT members who were
           unsure of the authenticity of immigration-related documents. On
           the state level, parole officers at the state department of corrections
           stated that they submitted referrals to the VCIT, but did not
           actively participate in investigations.

           In May 2005, ATF Special Agents assigned to the VCIT began
           patrolling the streets in the two target areas 4 nights per week with
           members of the Tucson Police Department’s specialized Bravo
           Units. Each Division had its own team of Special Agents and
           Police Officers. According to the VCIT Coordinator, this strategy
           was implemented after he learned about the success that another
           VCIT was having with it. In addition to patrols, the unit also
           responded to firearms crime scenes, worked follow-up on cases,
           and sometimes conducted undercover work.

      ATF indicated in its January 2006 Best Practices report that the
Tucson VCIT was successful during the pilot period because the
number of homicides committed with firearms decreased from 24
during June through November 2003 to 18 during the same period in
2004 (25 percent) in the city itself (not in the target area).

Philadelphia VCIT

       •   Target Area. During the pilot period, the VCIT target area was the
           Southwest Police Division, which encompasses 11 square miles,
           with an initial focus on the 2-square-mile 16th police district. The
           ATF Field Division initially assigned 18 Special Agents to the VCIT,
           including its entire Firearms Trafficking Group. By August 2005,
           ATF had reduced the number to nine. At the time the 16th district
           was selected, it had the second highest violent crime rate in the
           city (based on homicides and aggravated assaults with firearms)
           and was in the Police Division with the highest crime rate. At the
           time of our site visit in June 2005, the VCIT had shifted its focus
           to a different police district, based on a reported 75-percent
           reduction in homicides during the pilot period in the first district
           targeted. The second district targeted had the highest crime rate
           in the Southwest Division and was larger and more populous.

U.S. Department of Justice
Office of the Inspector General
                                                                              18
Evaluation and Inspections Division
       •   Targeted Offenders. The VCIT initially developed a “worst of the
           worst” list, but after the first 6 weeks of operation, shifted its focus
           from individuals on the list to targeting known shooters (usually
           identified through confidential informants). The VCIT identified
           and pursued individuals or groups likely to retaliate in response to
           a shooting (usually the target of the shooting or associates of the
           victim). According to ATF personnel, the “worst of the worst” list
           did not work because many of the individuals who were identified
           as having lengthy criminal histories were not the individuals
           responsible for violent shootings. Using ATF’s investigative
           technology resources, the VCIT would identify the most recent
           owner or possessor of recovered firearms, but found they were not
           necessarily “shooters.” The VCIT altered its approach to focus on
           following up on all shootings in the district to identify the victim, or
           the person targeted in those cases where there was no injury, and
           found that this approach was more effective than identifying the
           gun’s original owner. According to the VCIT Coordinator, about
           half of the people arrested by the VCIT had no previous
           convictions. He also stated that VCIT prioritized cases based on
           the victims or targets “we’ve got the information on” to identify
           potential retaliatory shooters.

       •   Community Outreach. Early in the pilot phase, VCIT
           personnel attended several community meetings, according
           to the VCIT Coordinator. VCIT personnel said that they
           discontinued this effort because they had not obtained
           information at these meetings on the people they wanted to
           arrest.

       •   ATF Technology. According to VCIT personnel, the use of the NTC,
           NIBIN, and CGAB by the Firearms Trafficking Group did not
           increase when the VCIT was formed. The VCIT personnel also
           characterized their use of the Firearms Technology Branch services
           as “nothing special.” They said that these technologies were used
           “a lot,” although the VCIT Coordinator noted that these
           technologies were not used by the VCIT to track crime trends. The
           VCIT Coordinator said that the VCIT would have liked to use the
           NIBIN for all shell casings. However, the Philadelphia Police
           Department (PPD) had been losing examiners. The remaining
           examiners were extremely busy with PPD work and were unable to
           submit shell casings to the NIBIN for all VCIT investigations. For
           example, shell casings from incidents in which the intended victim
           did not sustain injury were very low on PPD’s priority list, he said,


U.S. Department of Justice
Office of the Inspector General
                                                                               19
Evaluation and Inspections Division
           even though the information would be useful to VCIT. These
           casings could lead to shooters who missed their intended victim
           and soon could become victims themselves.

       •   Partnerships. The Philadelphia VCIT included a DEA Special Agent
           assigned part time, but no FBI Special Agents. The VCIT also
           included a Deputy U.S. Marshal assigned full time and one AUSA.
           The Deputy U.S. Marshal supported fugitive apprehension efforts
           and led “sweeps” of individuals wanted by the federal government,
           as well as the state government. The USMS also provided the VCIT
           with intelligence and surveillance equipment.

           In addition to federal law enforcement personnel and PPD officers,
           the VCIT included two investigators from the state narcotics
           bureau and two members of the circuit court bench warrant unit.
           According to VCIT members, the narcotics bureau agents provided
           the same support to the VCIT that the DEA would have brought,
           including surveillance equipment, legal staff, chemists, evidence
           handlers, and money to acquire evidence and information. ATF
           personnel stated that the most valuable resources were the officers
           from the judicial circuit bench warrant unit because these officers
           could easily detain or arrest VCIT targets with active bench
           warrants.

      ATF indicated in its January 2006 Best Practices report that the
Philadelphia VCIT was successful during the pilot period because homicides
committed with firearms decreased from 12 during June through November
2003 to 3 during the same period in 2004 (75 percent) in the target area.

Los Angeles VCIT

       •   Target Area. The Los Angeles VCIT operated in two of the Los
           Angeles Police Department’s (LAPD) most violent divisions, covering
           a 20-square-mile area with more than 3 million residents. ATF
           and LAPD reassigned members of an existing task force, which
           included 10 ATF Special Agents plus LAPD personnel, to form the
           VCIT. After initially operating in three LAPD divisions and one Los
           Angeles Sheriff’s Department substation, the VCIT eventually
           reduced its target area to the two LAPD divisions. According to
           VCIT personnel, this was due, in part, to the transfer of an ATF
           Special Agent back to his ATF home office and the concerns of
           Field Division management about the VCIT having taken on too
           large of a target area.


U.S. Department of Justice
Office of the Inspector General
                                                                             20
Evaluation and Inspections Division
       •   Targeted Offenders. The VCIT had no formal list of targeted
           offenders. According to the VCIT Coordinator, he did not want to
           restrict the team’s activities. Instead, the VCIT identified “targets”
           through investigations, Special Agents, or confidential informants,
           but did not identify criteria for selecting the targets. The VCIT’s
           focus was to adopt federal firearms cases originating in LAPD’s
           divisions that could be prosecuted in federal court.

       •   Community Outreach. The VCIT did not participate in community
           outreach activities. However, LAPD officers assigned to the VCIT
           stated that, as part of their usual duties, they interacted with
           LAPD community officers, who shared intelligence about gang
           activities.

       •   ATF Technology. The VCIT utilized ATF investigative technologies
           and frequently incorporated firearms tracing analysis into
           investigations. The VCIT also used firearms tracing analysis
           developed at ATF’s Southern California Regional Crime Gun
           Center.

       •   Partnerships. At the time of the site visit, the VCIT did not include
           DEA or FBI Special Agents. One Deputy U.S. Marshal worked part
           time on the VCIT during the early stages of the initiative. One
           AUSA worked on the VCIT part time. The VCIT reported working
           with LAPD and the California Department of Corrections. By
           comparison, during the pilot period the VCIT included one Special
           Agent part time from both the DEA and FBI, one Deputy U.S.
           Marshal part time, and two AUSAs full time, as well as six LAPD
           officers full time and four part time. Early in the implementation
           of VCIT, the Deputy U.S. Marshal had organized “fugitive sweeps”
           and participated more often in VCIT fugitive apprehension
           activities.

           Between one and four LAPD officers worked in each segment of the
           target area. The VCIT developed a partnership with LAPD’s Gun
           Unit, which works firearms cases originating anywhere in the city.
           The VCIT also worked with the state department of corrections.

      ATF indicated in its January 2006 Best Practices report that the Los
Angeles VCIT had not demonstrated success during the pilot period because
homicides committed with firearms increased from 72 during June through
November 2003 to 77 during the same period in 2004 (7 percent) in the
target area.


U.S. Department of Justice
Office of the Inspector General
                                                                               21
Evaluation and Inspections Division
Miami VCIT

       •   Target Area. The VCIT operated within the entire Miami-Dade
           County area (including the City of Miami), an area of approximately
           2,100 square miles with a total population of approximately
           2.38 million. While pursuing cases from the entire city-county, the
           VCIT attempted to focus on six scattered areas of it. ATF assigned
           25 Special Agents to VCIT during the pilot period and had
           increased the number to 34 by August 2005. The VCIT duties
           were assigned to several ATF Special Agent groups, all of which
           were already working on violent crime and all of which kept their
           pre-VCIT responsibilities. We were told by ATF Field Division
           management that the Miami Field Division added “VCIT” to the
           names of these groups.

       •   Targeted Offenders. The VCIT did not use a “worst of the worst”
           list. According to VCIT personnel, it was the consensus of all
           parties involved in the planning process that, given the
           demographics of the city-county area, such a list would be
           interpreted as racial profiling and would have a negative impact on
           community relations. ATF Special Agent in Charge said that they
           decided to go with a long-term, multifaceted approach that focused
           on firearms crimes, rather than on individuals, in geographic
           areas.

       •   Community Outreach. The VCIT did not conduct community
           outreach. The only community outreach mentioned by VCIT
           personnel during our site visit was attributed to other ATF
           programs, such as the Gang Resistance Education and Training
           Program.

       •   ATF Technologies. Miami VCIT personnel stated that they used
           ATF’s investigative technologies extensively. The VCIT traced all
           guns entered into the police evidence tracking system as property
           and attempted to enter all related bullets and casings into the
           NIBIN. However, there were 358 fewer trace requests by ATF’s
           Miami office during the VCIT pilot period than during the same
           period in the previous year. The VCIT did not use the CGAB.

       •   Partnerships. The VCIT did not include Special Agents from the
           DEA or FBI, but did include DEA support on an ad hoc basis. It
           included one Deputy U.S. Marshal part time and three AUSAs full
           time. The DEA Special Agent in Charge told us that he did not see


U.S. Department of Justice
Office of the Inspector General
                                                                           22
Evaluation and Inspections Division
          a need to provide a Special Agent full time to VCIT, in part,
          because the DEA already participated on numerous task forces.
          We were told by both USMS and ATF Field Division personnel that
          there really was no difference in the way the USMS worked with
          ATF since VCIT had been implemented, but both groups stated
          that working relationships had improved since VCIT was initiated.
          No other federal law enforcement agencies were included on the
          VCIT, although the Secret Service provided support for an
          international arms smuggling case, and ICE Special Agents
          provided support on several gang cases. By comparison, during
          the pilot period the VCIT included 3 DEA Special Agents part time,
          1 FBI Special Agent part time, 1 Deputy U.S. Marshal part time,
          and 2 AUSAs full time, as well as 16 members of the Miami City
          and Miami Dade County police departments.

          In addition to the federal personnel, the VCIT worked closely with
          approximately 15 officers from the Miami-Dade County Police
          Department. The police department also provided technical
          support, canines, and helicopter cover when necessary. The VCIT
          also worked with the Miami Police Department (MPD), but the
          working relationship had diminished to an “as needed” basis after
          many of the MPD officers were reassigned to other duties. We were
          told that ATF VCIT members responded to the scene of all
          firearms-related violent crimes and every police interaction with
          targeted individuals and associates of those individuals if they
          were in possession of firearms or ammunition and were stopped in
          the target area.

      ATF indicated in its January 2006 Best Practices report that the
Miami VCIT was successful during the pilot period because homicides
committed with firearms decreased from 36 from June through November
2003 to 22 during the same period in 2004 (39 percent) in the city itself (not
the target area).

      In addition to our five field visits, we conducted a survey and
additional research to assess how the VCITs implemented the five key
elements identified by the review team. We summarize below our findings
regarding the implementation of the 5 key elements of the VCIT strategy
across the 19 VCITs that we surveyed, including the 5 that we visited.

Target Small Geographic Areas

      Eighteen of the 19 VCIT Coordinators who responded to our survey
considered “identifying and working within a defined target area” a core or

U.S. Department of Justice
Office of the Inspector General
                                                                           23
Evaluation and Inspections Division
essential component of their VCIT initiative and stated that their VCIT
targets or operates in a specific geographic area. However, we found that
the specific geographic areas varied greatly in size and population. Overall,
we found that 8 VCITs targeted areas of 10 square miles or less, and 10
VCITs targeted areas ranging from 20 to 2,100 square miles. Two VCITs
targeted entire cities, and one targeted an entire county. The population in
the VCIT target areas ranged from 25,000 to 3 million residents. Eight of
the VCIT target areas had a population of 50,000 or more. 14

       The VCIT Strategy also indicated that, consistent with targeting a
small geographic target area, VCITs should be composed of a small number
of ATF Special Agents. Specifically, the VCIT Strategy recommended that
four Special Agents and a Supervisory Special Agent be assigned to a VCIT.
However, we found that ATF assigned an average of 10 Special Agents to
each of the 19 VCITs, with a range of 3 to 34 Special Agents. Table 3 details
the sizes of the areas targeted by 19 VCITs and the population within each
of the target areas.




       14 We derived this data from VCIT Coordinators’ survey responses. We also

obtained data from state and local government agencies’ official web sites and the
U.S. Bureau of the Census.



U.S. Department of Justice
Office of the Inspector General
                                                                                     24
Evaluation and Inspections Division
                                  Table 3: VCIT Target Areas
                                                                  Square
     VCIT City                     Target Area                                     Population
                                                                   Miles
 Hartford               Three neighborhoods                                5               48,000
 Tampa                  Two neighborhoods                                  7               50,000
 Baltimore              One police district                                4               52,500
 Tucson                 One police command area                            45             120,000
 Fresno                 Three police precincts                             51             275,000
 Camden                 One police district                           2 to 3               25,000
 Philadelphia           One police district                                11              75,000
 Tulsa                  One police division                                 8              75,000
 Columbus               Three police precincts                             33              75,000
 Washington,            Three police precincts and a
                                                                          36              295,000
 DC/No. Va.             4-mile traffic corridor
 Richmond               Three police sectors                                7              40,000
 Greensboro             Entire city                                      120              250,000
 Los Angeles            Two police divisions                               20           3,000,000
 Houston                One police precinct                               21               80,000
 Las Vegas              One police precinct                                3              100,000
 Albuquerque            One police command area                            20              85,000
 Miami                  Entire county                                 2,100             2,380,000
 Chattanooga            Entire city                                      135              150,000
 Pittsburgh             One police zone                                   10               48,000
 Note: Survey data are not always consistent with the data we report based on our site visit
 interviews.
 Source: Survey responses and independent inquiries


       A Senior Counsel to the Deputy Attorney General told us that some
VCITs “took on too much – too much geographic area and too many people.”
ATF Headquarters officials also acknowledged that some of the target areas
were too large. However, these officials said they notified only one VCIT of
this concern. The Assistant Director for Field Operations stated that the
Los Angeles VCIT, which operated in an area of 3 million people, “has been
notified that it is biting off more than it can chew.” The Los Angeles VCIT
Coordinator confirmed this assessment in his response to our survey,
reporting that his VCIT’s target area “is too large to be effective.” At the time
of our site visit, the target area had been reduced from three local police
districts and a sheriff’s substation to two police districts. The VCIT



U.S. Department of Justice
Office of the Inspector General
                                                                                                25
Evaluation and Inspections Division
Coordinator later reported that he planned to reduce the size of the target
area yet again.

Target the Worst Violent Offenders

      We found that 6 of the 19 VCITs (32 percent) used a “worst of the
worst” list and kept it updated to reflect arrests and newly identified targets.
Of the remaining 13 VCITs, 7 used a “worst of the worst” list, but did not
keep it up to date, and 6 did not use a “worst of the worst” list.

      According to ATF officials, when an individual on such a list was
stopped or arrested by any VCIT partner agency, ATF could then alert the
investigating officers about the individual’s criminal history, associations,
and ATF’s potential interest in federal prosecution. The officials anticipated
that any arrest of someone on a “worst of the worst” list would result in ATF
involvement in the case and, potentially, federal firearms charges. 15

       ATF Field Division managers in VCIT cities gave varying reasons for
not using lists of targeted offenders. One VCIT Coordinator stated that he
attempted to develop such a list, but that he later decided that his VCIT
would have more impact on violent crime by investigating recent firearms
violence rather than waiting for targeted individuals to commit crimes. The
Special Agent in Charge in another Field Division stated that a “worst of the
worst” list would be interpreted by community leaders as a form of racial
profiling and, as a result, that VCIT did not use such a list. In a third city
we visited, ATF developed a “worst of the worst” list, but it was not useful
because ATF VCIT members did not share the list with non-ATF VCIT
members.

       In addition, arrest data suggested that the VCITs did not focus
sufficiently on targeted individuals. According to VCIT arrest data, targeted
individuals represented only about 20 percent of the total number of arrests
by the VCITs. Although a key element of the VCIT initiative was to target
the worst offenders, from June 2004 through May 2005, the VCITs reported
making 3,592 federal and state arrests, of which 746 were targeted
individuals. Further, since only 6 VCITs used up-to-date “worst of the
worst” lists, and ATF did not require that VCITs document the definition of
“targeted individual” that they used to compile these data, it could not be


        15 Federal firearms charges generally carry more severe penalties than state

firearms charges for individuals with lengthy criminal records. Nearly every law
enforcement official we interviewed referred to this as “the federal hammer.” Moreover,
federal inmates serve their sentences without possibility of parole.


U.S. Department of Justice
Office of the Inspector General
                                                                                          26
Evaluation and Inspections Division
determined whether these 746 targeted individuals were the worst violent
offenders in the target areas. Figure 3 depicts the number of individuals
targeted and how many of those individuals were arrested.

                Figure 3: Individuals Targeted and Arrested by VCITs

  Targets Arrested       Targets Not Arrested



       Pittsburgh

    Chattanooga

            Miami

    Albuquerque

      Las Vegas

     Los Angeles

     Greensboro

       Richmond

 Wash DC/No.Va.

       Columbus

            Tulsa

     Philadelphia

          Tucson

        Baltimore

          Tampa

                     0                          50   100        150              200              250

Notes: Totals are for May 2004 through June 2005; therefore, data are provided only for the original
15 VCIT cities.
The Tampa VCIT reported arresting a greater number of targeted individuals than appeared on its list.
ATF’s revised form precludes this reporting anomaly from recurring.
Source: OIG VCIT Coordinator Survey


       While some variation in the number and type of individuals targeted
would be expected, ATF has not established clear criteria for developing and
using “worst of the worst” lists (or some other method) to identify targeted
individuals in each community. Further, because arrests of targeted
individuals – however they were defined by a VCIT – constituted only a small
portion of some VCITs’ arrests, ATF is unable to assess the effect of
targeting and arresting the worst violent offenders in the target areas on
reducing violent crimes committed with firearms, a major goal of the VCIT
initiative.


U.S. Department of Justice
Office of the Inspector General
                                                                                                 27
Evaluation and Inspections Division
Build Effective Working Relationships with Community Leaders

        The VCITs were expected to develop relationships with community
leaders to facilitate a “free flow” of information that could help them identify
and apprehend violent offenders. In our survey of VCIT Coordinators, 11
reported engaging in community outreach, such as attending community
meetings and participating in neighborhood watch activities. Eight VCIT
coordinators did not report that community relations were an essential part
of their strategy. Three of the 5 sites we visited were among the 11 that
reported they engaged in community outreach. However, during our site
visits we found that none of the five VCITs actively participated in any
community outreach. In fact, in one of the five cities, the VCIT Coordinator
told us that the VCIT had initiated community outreach activities, but
discontinued them when nothing from the community outreach gave the
VCIT information on the people they wanted to arrest.

       We found that local community groups in that city were unaware of
the VCIT and its operations. We interviewed several community group
leaders working in the target area, including the Advisory Board President of
the recreation center where ATF and local police department officials had
held a press conference to announce the expansion of the local VCIT. The
President stated that although he knew about the press conference, he did
not know anything about ATF’s VCIT initiative before the event and had not
heard anything since the press conference. Another prominent community
leader associated with a neighborhood drug prevention program said that,
until the OIG informed him of the VCIT’s expansion into his program’s
service area, he did not know about the VCIT or ATF’s presence in the
community.

       We concluded that the majority of the 19 VCITs did not undertake
activities to develop relationships in the community that could produce
leads and other information useful for criminal investigations.

Utilize ATF’s Investigative Technology Resources

      We determined that VCITs did not consistently use the services of the
NTC, the NIBIN, and the CGAB to facilitate their investigations. ATF
encouraged VCITs to make expanded and consistent use of these
technological resources, stating that they were essential to suppressing
violent criminals in the target areas.

      National Tracing Center. According to NTC officials, six VCITs
consistently used the NTC to expedite gun tracings, seven VCITs used the
NTC but not consistently, and four VCIT cities’ use of the NTC declined after

U.S. Department of Justice
Office of the Inspector General
                                                                             28
Evaluation and Inspections Division
ATF implemented the VCITs. Although all VCIT Coordinators reported it
was part of their local VCIT strategies to use the NTC to trace serial
numbers of firearms used in crimes and recovered at crime scenes, we
found VCITs did not routinely flag requests for NTC traces and, therefore,
did not receive the high priority that ATF intended. According to NTC data,
during the VCITs’ first year in operation, 6 VCITs flagged their requests from
21 to 291 times, and 7 VCITs used the flag fewer than 12 times. 16 In two of
the five VCIT cities we visited, personnel responsible for submitting trace
requests stated that they were unaware that they were supposed to flag
VCIT requests. A clerk in one of the cities said that the electronic trace
submission program used there did not have a VCIT project code, so VCIT
submissions to the NTC could not be flagged. An ATF contractor
responsible for submitting trace requests in the other city said that clerks at
the VCIT’s local police partner agency only marked trace requests as
“urgent” for high profile or newsworthy incidents. 17 Any VCIT case that did
not meet those criteria, she said, was not labeled “urgent.” She also stated
that she tried to keep the number of “urgent” trace requests to a minimum.

        Overall, during the 1-year period following the implementation of the
initial 15 VCITs, NTC data showed a 15-percent increase in the number of
trace requests it received from those cities. However, because the city-wide
NTC data are not specific to the VCIT target areas, the changes may not be
attributable to VCIT operations. We also noted that while 11 of the cities
increased their NTC usage, 4 submitted fewer trace requests. 18 One of the
cities submitted 524 fewer trace requests during the first year of VCIT
operations (2,694) than it did during the same period prior to implementing
a VCIT (3,218).

       National Integrated Ballistics Information Network. The NIBIN
program collects and analyzes images of fired cartridge casings and bullets
to link specific firearms to criminal activity. We compared NIBIN
submissions by pilot VCIT cities for the 6 months before VCIT
implementation (January through June 2004) with pilot cities’ submissions
during VCIT operations (July through December 2004). We found that six

       16  We were unable to determine the number of trace requests not flagged as VCIT
because those requests were grouped with all of the non-VCIT trace submissions from the
respective cities.

       17 As described in the Background section, the NTC gives the same priority to trace

requests with the VCIT flag as it does those marked “urgent.” Urgent requests are given the
NTC’s highest priority.

       18   Annual firearms tracing data was unavailable for the VCITs added in 2005.


U.S. Department of Justice
Office of the Inspector General
                                                                                        29
Evaluation and Inspections Division
VCIT cities submitted more images after VCIT implementation, seven
submitted fewer images, and two did not submit any images to the NIBIN
during 2004. Together, the initial 15 VCIT cities submitted 4,350 more
images to the database during the first 6 months of 2005 than they did
during the same period in 2004. 19 However, one VCIT city accounted for
1,305 (30 percent) of these additional images. 20 We concluded that
although VCITs increased the emphasis on violent firearm crime, over half
of the VCIT cities made fewer submissions to the NIBIN after ATF
implemented local VCIT operations than prior to implementation of the VCIT
initiative.

       The VCIT Coordinators in all five cities we visited stated that they
would like to submit images of all ballistics evidence found in VCIT target
areas to the NIBIN, and NIBIN Branch staff told us that all VCIT cities have
access to the NIBIN. However, we found that not all the VCITs used the
NIBIN. One VCIT city did not submit images because ATF had not placed
ballistics imaging equipment in that location. 21 Further, in two of the cities
we visited, VCIT Coordinators stated that personnel shortages at their local
law enforcement partner agencies often resulted in processing backlogs and
limited the number of ballistics images that could be processed. In one of
those cities, the local law enforcement partner submitted ballistics evidence
images only for violent firearms-related crimes that occurred in the city,
according to the VCIT Coordinator. Because of personnel shortages, the
agency did not submit images for firearms and shell casings recovered in
the VCIT target areas if they were not related to violent crimes. The VCIT
Coordinator said that it should be a priority to have images of all VCIT-
related ballistics evidence submitted to the NIBIN; however, he stated that
he had no authority over how the local police department handled its
ballistics evidence.

      Crime Gun Analysis Branch. In response to our survey, 17 VCIT
Coordinators (89 percent) stated that they used the CGAB on an ongoing
basis as part of their VCIT strategy. However, during our site visits to five of


       19  Because ATF collects NIBIN data on a city-wide basis, results specific to
individual VCITs could not be determined.

       20We were unable to determine the cause of the one VCIT city’s large increase in
NIBIN usage.

       21 According to the Chief of the NIBIN Branch, although the city did not have NIBIN

equipment on site, it had access to the NIBIN through ATF’s national crime laboratory
services. Yet, the city did not submit any fired cartridge casing or bullet images to the
database.


U.S. Department of Justice
Office of the Inspector General
                                                                                       30
Evaluation and Inspections Division
the VCIT cities, local VCIT personnel stated that they did not routinely use
the CGAB. In fact, in three cities we visited, ATF personnel and contract
staff explained that they were assigned to produce reports similar to those
provided by the CGAB – an indication that the type of information produced
by the CGAB was useful to VCITs but that ATF did not tailor CGAB reports
to support VCIT operations.

        An ATF contractor in one of the cities said that his “crime gun”
reports better reflected the jurisdictional boundaries and areas with high
levels of violent gang activity in the VCIT target area than the CGAB’s
reports. He stated that a CGAB report on his city was not of high quality
and inaccurately depicted jurisdictional boundaries. He surmised that this
was due to the CGAB’s lack of familiarity with the unique aspects of the
city. 22 In another city we visited, an analyst for the VCIT’s local law
enforcement partner stated that, at the direction of her agency’s own crime
analysis unit, she continued to produce quarterly “crime gun” maps similar
to those included in the CGAB’s quarterly report. She stated that she used
the same computer software to produce her maps, but included more
comprehensive data than the CGAB. Her reports (not the CGAB’s) were
later cited by local ATF personnel when they explained the area’s crime
trends to the OIG review team.

      According to the Chief of the CGAB, between June 2004 and August
2005 the CGAB produced 92 VCIT-related “crime gun” reports, which
represented about 15 to 20 percent of the CGAB’s annual workload.

      We determined that despite the CGAB’s distribution of “crime gun”
reports, ATF has not ensured that VCITs use these reports or work with the
CGAB to determine the appropriate VCIT boundaries. As a result, VCITs are
not fully utilizing the CGAB to identify current “hot spots of criminal activity
and the sources of ‘crime guns’ from those problem areas,” as described in
the VCIT Strategy.

Work in Partnership with Other Department Law Enforcement Components

      Of the 19 VCITs, most did not have assigned representatives from the
DEA, FBI, and USMS. One did include representatives from the DEA, FBI,
and USMS; another 14 VCITs included a representative from one or two of
those agencies; and 4 VCITs had no representative from any other
Department law enforcement component. The VCIT Coordinators reported

        22 The contractor stated that he was more familiar with how police districts in his

city were drawn than CGAB employees who worked in West Virginia.


U.S. Department of Justice
Office of the Inspector General
                                                                                          31
Evaluation and Inspections Division
that the DEA provided Special Agents to 7 VCITs, the FBI provided Special
Agents to 3 VCITs, and the USMS provided U.S. Deputy Marshals to 14
VCITs. In comparison, VCIT coordinators reported that the USAOs provided
AUSAs to 17 of the VCITs. See Table 4.

        Table 4: Department of Justice Component Participation
                           DEA                 FBI             USMS           USAO

                       Full    Part       Full       Part    Full   Part    Full   Part
   VCIT City           Time    Time       Time       Time    Time   Time    Time   Time
   Hartford                0      0            0         0      2       0      0       0
   Tampa                   0      0            0         0      0       1      4       0
   Baltimore               0          0       0         0       0      2       0        2
   Tucson                  0          1       0         0       0      1       2        0
   Fresno                  0          0       0         0       1      0       1        1
   Camden                  1          0       0         0       0      1       0        1
   Philadelphia            0          0       0         0       0      0       1        0
   Tulsa                   0          0       1         0       0      2       1        1
   Columbus                0          0       0         0       0      1       1        4
   Washington,
   DC/No. Va.              0          0       0         0       0      0       0        0
   Richmond                0          1       1         0       0      0       0        1
   Greensboro              0          1       0         0       0      1       1        0
   Los Angeles             0          0       0         0       0      1       0        1
   Houston                 0          1       0         0       0      1       0        3
   Las Vegas               0          1       0         0       0      2       1        0
   Albuquerque             0          0       0         0       1      0       2        2
   Miami                   0          5       0         1       0      1       4       16
   Chattanooga             0          0       0         0       0      0       0        3
   Pittsburgh              0          0       0         0       0      0       2        0
       Total               1      10          2         1       4     14      20       35
   Note: Survey data are not always consistent with the data we report from our site
   visit interviews.
   Source: OIG VCIT Coordinator Survey

       We also found that when the DEA and USMS assigned personnel to
VCITs, the personnel were often unaware of their expected roles and did not
always receive clear direction from either ATF or their own agency regarding
their expected duties. At only one of the five sites we visited did personnel
from either the DEA or USMS tell us that they had a clear understanding of
their role on the local VCIT.



U.S. Department of Justice
Office of the Inspector General
                                                                                            32
Evaluation and Inspections Division
        Efforts to Encourage Participation. The DEA and USMS issued
memorandums to their managers in the VCIT cities introducing the
initiative and encouraging support for it. In addition, the Deputy Attorney
General, in a conference call, informed the U.S. Marshals for the 15 pilot
VCIT cities about the VCIT initiative. FBI Headquarters officials considered
participating in the VCIT initiative, according to an FBI Unit Chief, and left
the decision to participate with the Special Agents in Charge in the VCIT
cities.

       Unclear Roles for DEA and USMS Participation. DEA and USMS
personnel assigned to VCITs stated that they had not received clear
direction from either ATF or their own agencies regarding their expected
duties. In only one of the five VCIT cities we visited did personnel from
either of the components have a clear understanding of their role in the
local VCIT. In the other four, DEA and USMS personnel assigned to VCIT
said they did not understand the VCIT initiative or their role as a VCIT
participant.

       DEA managers could clearly articulate the mission and objectives of
the VCIT initiative in only one of the five cities we visited. In two of those
cities, DEA managers and Special Agents were completely unfamiliar with
VCIT. We also found that the few DEA personnel who participated in the
VCIT initiative did not receive clear direction from ATF regarding their roles.

       Although USMS Headquarters officials told us that the USMS was
willing to participate in the VCIT initiative, we found a conflict in
expectations between USMS personnel and VCIT Coordinators that was
similar to that of the DEA. For example, in one city we visited, a
Supervisory Deputy U.S. Marshal, acting on USMS Headquarters direction,
stated that the USMS had assigned a Deputy U.S. Marshal full time to the
local VCIT, but ATF personnel told the Deputy to continue his regular duties
with USMS and that VCIT would contact him if necessary. In another city
we visited, the Deputy U.S. Marshal assigned to the local VCIT told us that
he took it upon himself to initiate warrant “sweeps” in the VCIT area
because he had been given no guidance regarding his role as a part-time
VCIT partner.




U.S. Department of Justice
Office of the Inspector General
                                                                            33
Evaluation and Inspections Division
       The incomplete implementation of the VCIT Strategy was
       due primarily to problems with the selection of the VCIT
       locations, inadequate direction by ATF Headquarters on
       implementing the VCIT strategy, and ineffective oversight
       of VCIT operations by ATF Headquarters. ATF did not
       address local conditions in the site selection process and,
       contrary to the VCIT Strategy, placed VCITs in areas with
       decreasing violent crime and areas without sufficient
       cooperation with local law enforcement. In addition, ATF
       did not provide sufficient direction and oversight to its
       Field Divisions to ensure that local VCITs implemented the
       key elements of the initiative.      Further, ATF did not
       develop an adequate evaluation plan, leaving it unable to
       demonstrate the effectiveness of the VCIT initiative.
       Consequently, ATF missed the opportunity to determine
       the impact of the VCIT strategy on combating violent
       crime.

Selection of VCIT Locations

      ATF did not address local conditions when selecting locations and
established some VCITs where violent crime was already decreasing or
where other violent crime initiatives were under way. ATF also placed some
VCITs in areas where it did not have agreements with local officials to
provide the local crime data it needed to monitor progress and evaluate the
impact of the pilot VCITs on violent crime.

       When selecting the initial VCIT cities, ATF and ODAG officials chose
locations without seeking input from the ATF Field Division personnel who
were most familiar with local conditions. ODAG officials described site
selection as a collaborative process with ATF that was based on a number of
different statistics from an analysis prepared by the Bureau of Justice
Statistics. According to a former ATF Headquarters official, ATF
Headquarters officials informed Special Agents in Charge that ODAG had
selected their cities for VCITs based on city-wide homicide rates. He also
said that after learning their locations had been selected, many of the
Special Agents in Charge expressed concerns.

      One of the VCIT Coordinators we interviewed during our site visits
told us that the crime rate in that target area was not significant enough to
warrant a VCIT. Our analysis of ATF’s data confirmed that violent crime
had been decreasing at some of the locations ATF chose for VCIT pilot sites.
At three of the seven VCIT pilot sites for which ATF was able to provide
target area data, homicides committed with firearms were decreasing before

U.S. Department of Justice
Office of the Inspector General
                                                                          34
Evaluation and Inspections Division
VCITs were established. Similarly, two of the six target areas for which ATF
was able to provide data on violent firearms crime had experienced a
decrease prior to local VCIT operations. See Figure 4. The data ATF
provided and our analysis of it will be discussed more fully later in this
report.

       Figure 4: Homicides Committed with Firearms in Target Areas

      June–November of 3 Years,
      Before and After VCITs Were Implemented in 2004
 90
                                                                                                     Increased
                Declining before VCIT                          Declined after VCIT
                                                                                                     after VCIT
 80

 70

 60

 50

 40

 30

 20

 10

  0
       Albuquerque   Chattanooga        Tampa       Columbus      Greensboro         Philadelphia   Los Angeles

                       2002 - Pre-VCIT          2003 - Pre-VCIT       2004 - Post-VCIT

Note: See Table 6 for the data underlying this chart.
Source: OIG analysis


        ATF also selected target areas for VCITs where local law enforcement
agencies were already targeting violent firearm crime. In interviews and
responses to our survey, we found that a local law enforcement agency
already had a program similar to the VCIT initiative in place in three VCIT
cities.

       Moreover, although local crime data were essential to evaluate the
effectiveness of the VCIT pilot, ATF did not establish agreements to secure
these data from local police for each of the pilot sites. As a result, ATF did
not have such data for the VCIT target areas in 8 of the 15 pilot cities.
Consequently, ATF was unable to determine the impact of local operations
on violent firearms crime overall or on homicides committed with firearms
for half of the pilot VCITs. VCITs in those eight cities also lacked data to
monitor changes in the amount and type of target area crime. The ATF

U.S. Department of Justice
Office of the Inspector General
                                                                                                                  35
Evaluation and Inspections Division
Assistant Director for Field Operations acknowledged the importance of
local support and stated that ATF would not establish a new VCIT where
there is no commitment from the local police department to share data and
other types of law enforcement support.

ATF Direction and Oversight

       We found that ATF did not provide sufficient direction and oversight
to its Field Divisions to ensure that local VCITs implemented the key
elements of the initiative. ATF officials did not develop policies and
procedures for incorporating the five key elements that differentiated VCIT
from routine ATF law enforcement operations. ATF also did not provide
resource materials or training on implementing the VCIT Strategy for ATF
Field Division staff or personnel from federal or local partner agencies. In
addition, ATF did not establish procedures for periodically reviewing local
VCIT operations. However, in August 2005 after the pilot period, ATF
Headquarters personnel met with VCIT Coordinators to discuss local
operations, and in January 2006 ATF published a Best Practices reportt,
which stated that “this analysis will be used to strengthen future VCIT
deployments.” However, ATF did not provide specific policies or guidance
for implementing the identified practices.

      ATF Headquarters officials told us that the staff in the Firearms
Programs Division who developed the VCIT initiative did not have the
authority to oversee the Field Divisions’ operations, which include local
VCIT operations. In response to our survey, 17 of 19 VCIT Coordinators
(89 percent) stated that the VCIT Program Manager in the Firearms
Programs Division was their primary point of contact for VCIT. However,
current and former ATF Headquarters officials told us that the VCIT
Program Manager had no direct control over how Field Divisions
implemented the VCITs. 23 The Chief of the Firearms Programs Division
confirmed that his division cannot direct how VCITs operate. The VCIT
Program Manager also stated that he did not have the authority to direct
changes in local VCIT operations. Rather, he stated that his role was to
report VCIT performance figures, such as arrests and homicide statistics,
and present program recommendations to other ATF Headquarters officials.



        23 One of the two VCIT Coordinators who did not report the VCIT Program Manager

as his point of contact reported his contact as a Program Analyst at ATF Headquarters.
The other reported his point of contact as the Special Agent assigned to the Firearms
Enforcement Branch who assisted in preparing for VCIT Coordinator meetings at ATF
Headquarters.


U.S. Department of Justice
Office of the Inspector General
                                                                                    36
Evaluation and Inspections Division
       Further, the ATF Field Operations management staff who have the
authority and responsibility to oversee the Field Divisions’ operations did
not provide operational guidance regarding how the VCIT Strategy should be
implemented. A Field Management Staff official told us that he receives
inquiries from VCIT Coordinators regarding VCIT operations, but can only
refer them to other ATF personnel, such as VCIT Coordinators who have
had similar concerns. Furthermore, an Assistant Special Agent in Charge of
a Field Division stated he had been told by the Assistant Director of the
Field Operations Division that with respect to VCIT implementation, he
could reduce violent crime anyway he saw fit. In effect, the ATF Field
Division staff who participated in the pilot VCIT initiative understood that
they could develop their own strategies to combat violent crime.

       All VCIT Coordinators we interviewed told us that ATF Headquarters
officials left it to ATF Field Division managers to develop their local VCIT
strategies. ATF Field Division managers stated that they received no
direction regarding specific elements of the VCIT Strategy that were to be
incorporated into the local VCIT strategies. Consequently, we found that
local VCIT activities were often a continuation of law enforcement activities
that were under way before VCIT was implemented and that the roles of
many Special Agents essentially did not change when they were assigned to
VCITs. In two of the cities we visited, ATF Field Division managers and
Special Agents told us that their VCITs’ activities were indistinguishable
from their Field Divisions’ previous routine operations. One Special Agent
stated, “As far as I know, they just gave [Project Safe Neighborhoods] a new
name.” Another Special Agent stated, “Really the only change is geography,
but essentially I’m doing the same thing.” One Assistant Special Agent in
Charge told us, “This is what we were doing before VCIT.” 24

       In two of the five cities we visited, we spoke with ATF Special Agents
assigned to VCITs who could not distinguish between their current role on a
VCIT and their responsibilities before the implementation of VCITs in their
cities. In fact, one ATF Special Agent did not know what the acronym
“VCIT” stood for. Another ATF Special Agent we interviewed did not know
that he had been assigned to the initiative. He asked the OIG review team




        24 One Assistant Special Agent in Charge stated that although his office had not

previously been performing VCIT-like activities, he did not view VCIT as a new initiative. He
stated that this type of effort has had many names, but that it is still about applying federal
firearms laws to felons.



U.S. Department of Justice
Office of the Inspector General
                                                                                           37
Evaluation and Inspections Division
what the initiative was and whether participation in the program would
benefit his operations. 25

       The inability of numerous Special Agents to differentiate routine
activities from VCIT activities was due, in part, to the reassignment to VCITs
of entire existing Special Agent groups. 26 We found that some ATF field
offices simply renamed existing agent groups “VCIT,” which made it difficult
for personnel to differentiate VCIT operations from other ATF law
enforcement activities. In one city we visited, Special Agents and local law
enforcement officers assigned to a VCIT explained that they had been part of
an earlier “ATF task force” that was given the VCIT moniker, but there was
no change in their roles or duties. In a second city, the Assistant Special
Agent in Charge told us that two pre-existing enforcement initiatives, one of
which had started 3 years prior to our site visit, now were considered part of
VCIT. The Special Agent in Charge’s description of VCIT as it operated in
that city was identical to the description of the pre-existing enforcement
initiatives rather than to the VCIT strategy.

Evaluation Plan

       ATF has not developed an adequate evaluation plan to determine the
effectiveness of the VCIT initiative. Although ATF’s VCIT Strategy stated the
importance of determining the effectiveness of the initiative and its impact
on homicides and all violent crimes committed with firearms, ATF
Headquarters officials did not implement a program-wide evaluation plan for
the VCIT initiative that would accomplish this objective. We found that ATF
collected standard measures of law enforcement activity – such as arrests –
that, alone, were not adequate to evaluate the implementation or
effectiveness of a specific strategy such as VCIT. ATF did not collect and
analyze data program-wide to identify and correct problems in implementing
VCIT’s key elements and evaluating their effectiveness:

       •    Target Small Geographic Areas. ATF’s evaluation strategy was not
            adequate for this element because ATF did not collect and analyze
            data comparing the amount of resources it had committed for its
            basic operations in the target area to the amount of additional
            resources committed to a target area once VCIT was established.

       25We later reconfirmed with the Assistant Special Agent in Charge that this Special
Agent was a member of the local VCIT.

       26 Special Agent groups are generally assigned to a specific law enforcement activity

such as the investigation of gun trafficking. An ATF Field Division may have as many as
six Special Agent groups, while Area Offices may have only one.


U.S. Department of Justice
Office of the Inspector General
                                                                                        38
Evaluation and Inspections Division
           Therefore, it could not determine if, by establishing a VCIT, it had
           in fact increased law enforcement resources in a target area. It
           also could not effectively evaluate either the impact of targeting a
           small area with a limited amount of additional personnel resources
           or the impact of assigning entire agent groups to larger areas.

       •   Target the Worst Violent Offenders. ATF’s evaluation strategy was
           not adequate for this element because it did not address the
           collection and analysis of data on the criminal histories of
           offenders arrested by a VCIT in a target area compared with the
           criminal histories of offenders arrested in the target area before the
           VCIT was implemented. Furthermore, because ATF did not collect
           and analyze data on the prosecution, conviction, or sentencing of
           VCIT arrestees, ATF could not determine if these actions
           contributed to a reduction in crime rates.

       •   Build Effective Working Relationships with Community Leaders.
           ATF evaluation was not adequate for this element because ATF did
           not collect and analyze appropriate data on how VCITs worked
           with community leaders to increase the flow of information
           between the community and the VCITs. To evaluate this key
           element, ATF could have collected and analyzed data on the VCITs’
           use of information from the community in their investigations.
           Instead, ATF collected data on the “Number of Outreach Activities
           Participated In (Meetings, Strategy Sessions, Presentations,
           Speeches)” and the “Number of Persons Exposed to Outreach
           Activities.” Using these data, ATF could report, for example, that
           one VCIT made 250 community contacts by attending a meeting of
           250 community residents and that another VCIT made 2 million
           contacts through multiple press conferences. But data on
           numbers of meeting attendees and people exposed to press
           conferences does not measure whether VCITs obtained cooperation
           and information from the community and used it in investigating
           violent crimes.

       •   Utilize ATF’s Investigative Technology Resources. ATF’s evaluation
           strategy was not adequate for this element because ATF did not
           analyze the data it collected on the number of submissions VCITs
           sent to the NTC, NIBIN, and CGAB. If ATF had analyzed that data,
           it could have examined the decreases in the use of these
           technologies in VCIT cities that we discussed previously in this
           report. ATF also did not collect or analyze data on the use of
           information from these technologies in its investigations.


U.S. Department of Justice
Office of the Inspector General
                                                                              39
Evaluation and Inspections Division
       •   Work in Partnership with Other Department Law Enforcement
           Components. ATF evaluation strategy was inadequate for this
           element because ATF did not collect data on the level of personnel
           and other resources that other Department law enforcement
           components provided to VCITs. Further, ATF did not collect and
           analyze data on joint investigations. As a result, ATF did not have
           information on resource commitments that it could have used to
           identify those VCITs that lacked adequate assistance from
           Department components. ATF also could not determine which of
           the resources provided by those components were most beneficial
           for VCITs. Rather, ATF collected and reported anecdotal
           information in its “lessons learned” documents and press releases
           on instances in which another Department component was
           involved with a VCIT on a particular case or law enforcement
           operation. Therefore, ATF did not have the information necessary
           to evaluate the quality and quantity of resources other Department
           components provided.

       ATF Headquarters officials recognized the importance of conducting
local evaluations of VCIT operations in each city, but they did not provide
Field Divisions with guidance on how to conduct such evaluations. When
we examined the local evaluations that the VCIT Coordinators submitted to
ATF Headquarters, we found that they described in narrative fashion local
lessons learned. Few reports provided quantitative or qualitative data
documenting the effectiveness of VCIT activities.

       For example, reports did not provide data on the characteristics (e.g.,
criminal histories) of those arrested by VCITs or the investigative
technologies used in each VCIT investigation. None of the reports
documented the number of VCIT arrestees who were prosecuted, the court
system in which they were prosecuted, or the length of the sentences
handed down for those who were convicted. Moreover, the reports did not
contain quantitative or qualitative assessments of the implementation of the
VCIT initiative’s other key elements, such as the use of community
information in investigations or other federal and local resources committed
to the initiative. If the local VCITs had collected that data, they could have
determined whether they were using resources effectively and arresting the
worst violent offenders in their target areas. Then it would be possible to
conduct impact studies to determine if performance of the key elements was
having the desired effect on reducing homicide and other firearm crimes.




U.S. Department of Justice
Office of the Inspector General
                                                                           40
Evaluation and Inspections Division
ATF’s Claim of VCIT Success Is Based on Insufficient Data

       Our analysis of ATF’s data on homicides committed with firearms did
not support ATF’s claim that the VCIT initiative was successful. (See
Appendix III for the form ATF uses to compile and analyze VCIT data.) The
Violent Crime Impact Teams: Best Practices report ATF issued in January
2006 compared the number of homicides committed with firearms before
and after the VCIT implementation in the 15 pilot cities. ATF reported that
the pilot program was a success because the number of homicides
committed with firearms decreased in 13 of the 15 pilot cities compared
with the number of homicides in the same 6-month period of the preceding
year. The following table, Table 5, appears on page 6 of ATF’s January 2006
report.

                Table 5: Homicides Committed with Firearms
                                                2003              2004          Percentage
                    City
                                              June-Nov.         June-Nov.         Change
      Albuquerque*                                      4                2            -50%
       Baltimore                                       91             128              41%
       Chattanooga                                      6                2            -67%
       Columbus*                                       32               26            -19%
       Greensboro                                      13                3            -77%
       Las Vegas                                       62               51            -18%
       Los Angeles*                                    72               77              7%
       Miami                                           36               22            -39%
       Pittsburgh                                      33               13            -61%
       Philadelphia*                                   12                3            -75%
       Richmond                                        51               38            -25%
       Tampa*                                          19                9            -53%
       Tucson                                          24               18            -25%
       Tulsa                                           29               12            -59%
       Washington, DC/No. Va.                          92               76            -17%
                    Total                            576              480             -17%
   * The statistics in this table for Albuquerque, Columbus, Los Angeles, Philadelphia, and
   Tampa include homicides or violent crimes that occurred only within the VCIT target area,
   not within the entire city.
   Source: ATF, Violent Crime Impact Teams: Best Practices, January 26, 2006


      Our analysis of the data in the ATF report does not support this
conclusion. We found ATF based its analysis and conclusions on


U.S. Department of Justice
Office of the Inspector General
                                                                                               41
Evaluation and Inspections Division
insufficient data and faulty comparisons. ATF inappropriately used city-
wide data, rather than target area data, for 8 of the 15 VCITs and therefore
could not demonstrate the impact of the VCIT on homicides committed with
firearms for half of the target areas. The VCIT Program Manager said that
ATF used city-wide data because it did not have access to target area crime
data for those eight cities. However, city-wide data are not a valid measure
for VCITs that did not have entire cities as their target areas. Moreover, the
number of homicides committed with firearms in some of the target areas
where ATF implemented VCITs was relatively small during both 6-month
periods. Therefore, percentage decreases reported by ATF appear dramatic
but actually reflect small changes in the number of homicides committed
with firearms, making it difficult to draw conclusions about the effectiveness
of the VCIT initiative. For example, ATF reported that in Albuquerque,
homicides committed with firearms in the target area decreased by
50 percent – from 4 between June and November 2003 to 2 during the same
period in 2004. In addition, ATF’s use of data from only two points in time,
2003 and 2004, was not consistent with accepted standards for trend
analysis. 27

      Table 6 presents the results of our analysis of ATF data on target area
homicides committed with firearms in the seven VCIT cities for which ATF
provided target area data. To analyze trends for these seven cities, we
added data on total homicides committed with firearms for the same 6-
month period from 2002, 2003, and 2004. One of the seven cities,
Columbus, showed no change; another, Los Angeles, showed an increase.
Three other cities – Albuquerque, Chattanooga, and Tampa – showed a
downward trend beginning in 2002 before the VCITs were implemented, a
trend that continued during the pilot period. Only two cities, Greensboro
and Philadelphia, showed an increase from 2002 to 2003 that was followed
by a decrease during the pilot VCIT period. 28




       27 The Baldrige National Quality Improvement Program of the National Institute of
Standards and Technology establishes three points in time as the minimum for a trend
analysis.

       28 We attempted to establish a fourth point for the analysis and asked ATF for 2005

data. ATF staff told us that they did not have 2005 data for all VCITs and that some of the
data that the ATF Field Divisions submitted to Headquarters had not been verified.


U.S. Department of Justice
Office of the Inspector General
                                                                                       42
Evaluation and Inspections Division
      Table 6: Homicides Committed with Firearms in Target Areas
                                         2002             2003                2004
               City
                                       June-Nov.        June-Nov.           June-Nov.
    Albuquerque                                 7                  4                  2
   Chattanooga                                24                   6                  2
   Columbus                                   26                  32                 26
   Greensboro                                   7                 13                  3
   Los Angeles                                59                  72                 77
   Philadelphia                                 6                 12                  3
   Tampa                                      22                  19                  9
              Total                          151                158                 122

Source: OIG analysis of ATF-provided data


       We believe that a better measure of the effectiveness of the VCIT
initiative would have been to compare the number of violent firearms crimes
(not homicides only) in the VCIT target areas for the same time periods
before and after the initiative was implemented. First, the change in the
number of violent firearms crimes is a standard ATF agency-wide
performance measure. Second, the number of violent firearms crimes in the
VCIT target areas is a larger number, ranging from 107 to 4,056, making
analyses of these data more reliable. Furthermore, according to its VCIT
Strategy, ATF intended to measure the effectiveness of VCITs not only by the
number of homicides committed with firearms, but also by the total number
of homicides, the number of violent crimes, and the number of violent
firearms crimes. 29

      Our analysis of the number of violent crimes involving firearms in
VCIT target areas does not show that the VCITs were successful in reducing
violent firearms crime, a primary goal of the VCIT initiative. Table 7 depicts
our analysis of VCIT’s performance based on data ATF provided on violent
crimes committed with firearms in six VCIT cities. Only two of the six,
Tampa and Greensboro, experienced a positive impact on violent firearms
crimes in their target areas. Before VCIT implementation, Tampa

       29  According to ATF’s Strategic Plan for 2004–2009, the performance measures for
ATF’s firearms enforcement activities are “percent change in violent firearms crime in
metropolitan areas with a substantial ATF presence (as compared with similar areas)” and
“percentage of high-crime cities with an ATF presence demonstrating a reduction in violent
firearms crime when compared to the national average (2004–2009).”



U.S. Department of Justice
Office of the Inspector General
                                                                                        43
Evaluation and Inspections Division
experienced a decrease in violent firearms crimes from 278 in 2002 to 257
in 2003, followed by a sharper decrease to 107 in 2004 after VCIT
implementation. Greensboro experienced an increase in violent crimes
committed with firearms before VCIT implementation, followed by a slight
decrease after implementation. Los Angeles showed a decrease that began
before VCIT was implemented and continued after implementation, and
Chattanooga showed a decrease prior to VCIT implementation. In two cities,
Albuquerque and Philadelphia, violent firearms crime increased after VCIT
was implemented. A comparison of high-crime areas with VCITs and similar
high-crime areas without VCITs would constitute a stronger evaluation
methodology. 30

   Table 7: Violent Crimes Committed with Firearms in Target Areas
                                           2002                  2003                  2004
               City
                                         June-Nov.             June-Nov.             June-Nov.
    Albuquerque                                   256                   188                   191
   Chattanooga                                  1,149                   346                   N/A
   Greensboro                                     334                   353                   351
   Los Angeles                                  2,338                 1,863                  1,731
   Philadelphia                                 3,581                 3,886                  4,056
   Tampa                                          278                   257                   107
               Total                            7,936                 6,893                  6,436
Note: The data included in the table were provided to ATF by the local police departments.
Source: OIG analysis of ATF-provided data


      In addition, during our fieldwork, several ATF officials told us that
they were not prepared to say that the decreases in homicides in VCIT cities
were directly attributable to VCIT operations. In sum, while ATF officials
recognized the importance of evaluating the VCIT initiative in the VCIT
Strategy, they did not develop an adequate evaluation plan to support
claims of success.




      30 We also note that this methodology is advocated by the Office of Management

and Budget’s Program Assessment Rating Tool.



U.S. Department of Justice
Office of the Inspector General
                                                                                                 44
Evaluation and Inspections Division
CONCLUSIONS AND RECOMMENDATIONS

       Although we believe ATF developed sound objectives for the VCIT
Strategy to combat violent firearms crime, ATF did not implement that
Strategy. This was primarily due to ATF’s inconsistent direction to and
oversight of its Field Divisions on adapting the VCIT Strategy to local
operations. Most VCITs inconsistently incorporated the key elements that
were to differentiate the VCIT initiative from ATF’s day-to-day enforcement
operations. Further, ATF did not develop an adequate evaluation strategy to
measure the performance or impact of the VCIT initiative, and ATF’s
analysis of the data it collected does not support its claims of success. As a
result, although the Strategy on paper appears to be a reasonable and
effective approach, after 24 months of operations and the allocation of more
than $35 million in reprogrammed funds, general operating funds, and
funds appropriated for VCIT, ATF cannot definitively show whether the VCIT
initiative successfully reduced firearms crime in areas with high levels of
violent crime.

      For FY 2006, ATF received $20 million to continue and expand the
VCIT initiative. To maximize the use of these funds and to inform future
funding decisions, we believe that ATF should implement the VCIT initiative
consistent with its VCIT Strategy and in a manner that will allow ATF to
determine whether the Strategy is effective in reducing violent firearm crime
in specific areas. To accomplish this, we recommend that ATF:

       1. Establish specific operational guidelines for VCIT implementation,
          and provide training based on these guidelines for ATF Special
          Agents in Charge and VCIT Coordinators on tailoring the VCIT
          initiative to local crime problems.

       2. Develop and implement a pre-deployment assessment for
          prospective VCIT locations to determine the potential applicability
          of VCIT to local violent crime problems.

       3. Develop and implement an adequate evaluation strategy to assess
          VCIT performance and impact on violent firearms crime.

       4. For existing VCITs, where possible, and for future VCITs, establish
          interagency agreements with federal and local partner agencies
          that define resource commitments and operational responsibilities.

       5. Establish management authority and responsibility for overseeing
          the implementation and evaluation of local VCIT operations in


U.S. Department of Justice
Office of the Inspector General
                                                                           45
Evaluation and Inspections Division
          accordance with the VCIT Strategy and the guidelines developed in
          response to Recommendation 1.




U.S. Department of Justice
Office of the Inspector General
                                                                        46
Evaluation and Inspections Division
                APPENDIX I: VCIT DATA COLLECTION FORM




U.S. Department of Justice
Office of the Inspector General
                                                        47
Evaluation and Inspections Division
                APPENDIX II: VCIT COORDINATOR SURVEY




U.S. Department of Justice
Office of the Inspector General
                                                       48
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      49
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      50
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      51
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      52
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      53
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      54
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      55
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      56
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      57
Evaluation and Inspections Division
                APPENDIX III: VCIT PERFORMANCE REPORT




U.S. Department of Justice
Office of the Inspector General
                                                        58
Evaluation and Inspections Division
        APPENDIX IV: ATF’S RESPONSE TO THE DRAFT REPORT




U.S. Department of Justice
Office of the Inspector General
                                                          59
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      60
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      61
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      62
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      63
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      64
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      65
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      66
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      67
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      68
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      69
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      70
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      71
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      72
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      73
Evaluation and Inspections Division
                APPENDIX V: OIG’S ANALYSIS OF ATF’S RESPONSE


       On April 10, 2006, the Office of the Inspector General (OIG) provided a
draft of this report to the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) with a request for written comments. We asked that ATF
indicate its concurrence or non-concurrence with each of the five
recommendations, describe the actions taken or planned in response to the
recommendations, and provide the completion dates of those actions. On
April 18, 2006, the Assistant Inspector General for Evaluation and
Inspections and the review team met with senior ATF officials to discuss the
report’s findings.

       ATF responded to the OIG in a memorandum dated May 1, 2006.
ATF concurred with all five of our recommendations and provided a
description of the actions it plans to take in implementing the
recommendations. The actions that ATF has taken and plans to take are
partially responsive to our recommendations.

       Although ATF concurred with each of the report’s five
recommendations, it disagreed with some of the findings. ATF stated that
its “primary disagreement was founded on the fact that the [Violent Crime
Impact Team (VCIT)] program was a 6-month pilot program actively under
review by ATF at the time of the OIG review.” ATF contended that the OIG’s
criticisms regarding the implementation of a pilot program were premature.
ATF also expressed concerns related to how the OIG assessed two primary
issues: performance measurement and program implementation.

OIG’S ANALYSIS OF ATF’S RESPONSE TO REVIEW’S FINDINGS

       The OIG disagrees with ATF’s foundational argument that it was
premature for the OIG to review the VCIT program. First, on multiple
occasions in early 2005, ATF and senior Department officials publicly stated
that the VCIT initiative had been a success. For example, on March 17,
2005, 11 months after the program began, the ATF Director announced that
the “indications are that VCIT is working. . . . We are acting on these
indications of [VCIT] success: we’re expanding the VCIT program to five
cities immediately and to an additional five later this year.” Second,
contrary to ATF’s contention that the program was “under design” when the
OIG conducted its review, the VCIT Strategy that ATF issued in June 2004
has remained essentially the same, as documented in ATF’s January 2006
Violent Crime Impact Teams: Best Practices report. Given that ATF and
Department officials believed that the program was sufficiently mature to


U.S. Department of Justice
Office of the Inspector General
                                                                          74
Evaluation and Inspections Division
report results and request funding for expansion, and that the program
design has not changed significantly since its inception, ATF’s contention
that it was premature for the OIG to examine the program is not persuasive.

      We discuss below other concerns raised by ATF regarding our
assessment of the VCIT initiative.

Performance Measurement Findings

       ATF contended that the OIG did not recognize that the VCIT initiative
had contributed significantly to the decline in homicides and overall violent
crime in VCIT cities. ATF discussed its contributions to reducing violent
crime through its participation in Project Safe Neighborhoods and VCIT.
ATF also provided data that it had not provided during our review to
support its claim of success. ATF noted that it is difficult to measure law
enforcement success in preventing crime, but attempted to support its
assertions of VCIT’s success by comparing the Federal Bureau of
Investigation’s (FBI) Uniform Crime Reports (UCR) homicide data from 2001
through 2004 for the 15 pilot VCIT cities versus all other U.S. cities.
According to the data that ATF provided, homicides declined 8.2 percent in
VCIT cities from 2003 to 2004, but declined only 1.5 percent in U.S. cities
without VCITs during that period. ATF concluded that the greater reduction
in homicides in VCIT cities was evidence of the VCIT initiative’s
effectiveness.

       The OIG disagrees that ATF’s comparison of FBI UCR data on total
homicides in the 15 VCIT pilot cities with total homicides in all other U.S.
cities that participate in the UCR demonstrates VCIT’s success. First, the
15 VCIT pilot cities were selected because they were experiencing high rates
of homicide. In contrast, the comparison group of non-VCIT cities included
cities where homicide rates were variously increasing, decreasing, and
static. Statistically, the trend in the homicide rate for this broad and
diverse group of cities will necessarily fluctuate less than that for the
smaller group of high-crime VCIT cities, regardless of any new law
enforcement operation. Therefore, we would expect to see more change in
homicide rates in VCIT cities, regardless of whether the VCIT program had
an impact.

        Second, in comparing changes in the number of homicides in VCIT
pilot cities and in non-VCIT cities, ATF assumed that the VCITs were the
only significant difference in anti-violent crime activities between the two
groups of cities. In fact, U.S. cities have implemented a broad variety of
strategies to reduce homicides and other violent crime. Because cities also
differ in other characteristics related to crime, the FBI offers the following

U.S. Department of Justice
Office of the Inspector General
                                                                            75
Evaluation and Inspections Division
cautionary note with regard to using its UCR data for cross-city
comparisons:

       Because many of the variables that influence crime in a
       particular town, city, county, state or region, the UCR Program
       does not encourage the comparison. Some of those variables
       include, but are not limited to population density and the
       degree of urbanization, modes of transportation and highway
       systems, economic conditions and citizens’ attitudes toward
       crime.

       Third, only a small portion of the reduction in homicides in the VCIT
pilot cities from 2003 to 2004 could be attributable to local VCIT operations
because VCITs: (1) operated in target areas within cities rather than city-
wide, (2) did not focus on homicides resulting from domestic violence, and
(3) did not begin operating until June 2004, almost half way through the
year. Specifically:

   •   ATF could not determine if reductions in city-wide homicides may
       have been due, in part, to a reduction in homicides in the VCIT target
       areas because ATF did not have target area data for more than half (8
       of 15) of the pilot cities. For the 7 cities where ATF had target area
       data on homicides committed with firearms, it did not determine if the
       target area accounted for a significant portion of the total number of
       homicides in the city. That analysis is essential for ATF to show that
       a reduction in homicides committed in the target area could have had
       a significant impact on the city-wide homicide rate.

   •   Using the total number of a city’s homicides as a measure of VCIT
       effectiveness is inappropriate because a significant portion of
       homicides result from domestic violence and VCITs were not designed
       to focus on domestic violence.

   •   Because local VCIT operations were not initiated until June 2004, it is
       highly improbable that the effect of those operations would be
       reflected in 2004 UCR data. The VCITs required, at a minimum,
       several months to identify and arrest targeted individuals in the target
       area and remove them from the target area pending prosecution. As a
       result, VCITs could not have begun to affect crime rates until the last
       few months of 2004.

       We therefore concluded that the reductions indicated by the UCR data
of total city-wide homicides from 2003 to 2004 among the 15 pilot cities


U.S. Department of Justice
Office of the Inspector General
                                                                            76
Evaluation and Inspections Division
cannot be attributed to the local VCIT operations. Rather than using city-
wide UCR data, local police data on homicides for the VCIT target area for
several years before and after a VCIT was implemented are required to
determine if a relationship exists between a local VCIT operation and a
change in that area’s homicide rate. The particular type of homicide data to
be used for this analysis (e.g., homicides, homicides committed with
firearms, or non-domestic homicides) would depend on the specific focus of
the VCIT operation.

       In sum, the available data were not sufficient to support ATF’s
conclusions regarding the success of the initiative. While the OIG
recognizes that it is difficult to measure the effectiveness of crime prevention
efforts, the collection and analysis of appropriate data are essential to
provide accurate information to decision-makers who allocate federal funds.

       Finally, in its response to the report’s performance measurement
findings, ATF stated that “the OIG should not base any tables or analysis on
unvalidated figures (see Table 2 in Executive Digest of the OIG review,
Figure 4, Table 7 and Table 8 in the OIG review).” 31 ATF said that its data
on homicides with firearms undergoes a thorough validation with the local
police departments and that none of the violent firearms crime data the OIG
had referenced had been verified or validated. ATF requested that the OIG
validate these numbers it had provided with the local police departments.

      The OIG included an analysis of these data to illustrate how the use of
more appropriate data could be used for determining the effectiveness of
VCITs. However, we have included a footnote for Table 2 in the Executive
Digest and Table 7 in the body of the report indicating that the original
source of the data was local police departments.

Program Implementation Findings

      In its response, ATF stated that the goal of the VCIT pilot was to
determine if ATF could affect the number of homicides in specific high-crime
areas and identify which elements of the Strategy were effective and should
be included in future implementation plans. ATF argued that the OIG
prematurely reviewed the VCIT initiative in a way it would have reviewed a
government program that had been in operation for many years. ATF
further stated that the VCIT Strategy was designed to give local ATF offices a
framework so that they could model their implementation of VCIT around

       31 In the final version of the report, Table 7 was renumbered as Table 6 and Table 8

was renumbered as Table 7.


U.S. Department of Justice
Office of the Inspector General
                                                                                       77
Evaluation and Inspections Division
the aspects of the program that actually worked in their areas. ATF also
took issue with the OIG’s selection of five key elements that the OIG
“believed to be the most important to the implementation of the VCIT
strategy” and instead said the OIG should have conducted its evaluation
based on six objectives in ATF’s Strategy.

       The OIG disagrees with ATF on most of those points. First, in
referring to our report, ATF states, “We agree that VCIT does prevent
crime. . . .” The OIG actually concluded that while the VCIT Strategy itself
may be an effective tool to reduce violent crime in target areas, and the OIG
also concluded that ATF could not yet determine the effectiveness of the
Strategy.

       Second, as discussed previously, we initiated this review after ATF
officials announced that the VCIT pilot was successful and that they were
planning to expand the initiative based on the pilot’s success. The pilot
took place from June through November 2004. At the time our review
began, ATF had almost a full year of VCIT operations for us to review. By
the time the OIG’s fieldwork was completed, VCIT had been operating in the
pilot cities for approximately 18 months.

      Third, in our report, we stated that the five key elements we selected
were essential to implementing the VCIT initiative and that, collectively, the
key elements differentiated VCIT from traditional ATF law enforcement
operations. We further explained that we selected these five key elements
because the Office of the Deputy Attorney General (ODAG) and ATF officials
consistently highlighted them as essential to implementing the VCIT
strategy.

       Regardless of whether the VCIT Strategy is considered to have five
key elements or six objectives, the OIG agrees with ATF’s statement that the
goal of the pilot was to determine which elements of the strategy were
successful and should be included in future implementation. The OIG also
recognizes that flexibility is essential to allow the program to be tailored to
local conditions. However, the OIG found that, rather than flexibly
implementing the VCIT Strategy, some local VCIT operations did not
implement the Strategy’s essential elements. As a result, ATF did not
effectively test the Strategy and cannot support its claim that the VCIT
initiative was effective. For example, we found that seven VCITs using a
“worst of the worst” list of targeted individuals did not keep it updated,
while six did not use such a list at all. We also found that only one VCIT
included representatives from the Drug Enforcement Administration (DEA),
FBI, and U.S. Marshals Service (USMS), while four VCITs had no
representatives from the DEA, FBI, or USMS. Further, during our site

U.S. Department of Justice
Office of the Inspector General
                                                                            78
Evaluation and Inspections Division
visits, we found that none of those five VCITs actively participated in
community outreach.

Specific Findings

       1. Target Small Geographic Areas

      ATF stated that the use of the term “small” to characterize the
intended size of target areas for the VCIT initiative was inappropriate and
that the OIG inaccurately described site-specific details in describing VCIT
operations in several cities. ATF also stated:

       While ATF agrees that some cities may have initially selected a
       larger area than might be ideal, and concurs that a small area
       may be a reasonable recommendation, to represent this as a
       ‘key element’ in the implementation of the pilot misrepresents
       the strategy.

      Specifically, ATF contended that the OIG inaccurately described the
VCIT target areas as city-wide for Chattanooga and Miami.

       Although ATF did not use the adjective “small” in reference to target
areas in the VCIT Strategy, references in the Strategy and interviews with
ODAG and ATF officials led us to conclude that a target area was clearly
intended to be a small geographical area within a city. In the VCIT Strategy,
ATF used the following terms to describe the target areas: “community,”
“neighborhood,” “geographic areas within cities,” and “police districts.” The
VCIT Strategy also recommended assigning four Special Agents and one
supervisory agent to a VCIT target area, which clearly indicated that the
target area was to be of limited geographic size. Further, in announcing the
VCIT initiative pilot in 15 cities, ATF officials frequently said that the VCITs’
efforts would focus on “hot spots” of violent crime. For example, one ATF
official stated, “VCIT is a laser-like approach focusing on hot spots of
violence.”

      ATF’s contention that the OIG incorrectly described the size of the
target areas for the Chattanooga and Miami VCITs is incorrect. In
describing the areas within which the VCIT operated, the Chattanooga VCIT
Coordinator stated in responding to our survey that during the VCIT’s first
12 months it operated throughout the city-county area and subsequently




U.S. Department of Justice
Office of the Inspector General
                                                                              79
Evaluation and Inspections Division
reduced the target area to the city. 32 Similarly, in response to our survey,
the Miami VCIT Coordinator reported that the Miami VCIT operated within
the whole of Miami-Dade County and that the VCIT operated in five
principal areas within the county that warranted specific attention.

       2. Target the Worst Violent Offenders

      ATF’s response faults the OIG for not including the reasons why six of
the VCITs did not use a “worst of the worst” list.

       Our analysis of the VCITs’ targeting the worst offenders was designed
to evaluate whether ATF implemented and measured the impact of this
element. The fact that six VCITs did not implement this key element of the
VCIT initiative prevented ATF from measuring its effectiveness at those
sites, regardless of the reasons for not implementing it. Furthermore, we
also found that seven other VCITs did not keep their lists of targeted
offenders current, which diminished the usefulness of any attempt to
measure the impact of this element in those cities. Overall, 13 of 19 VCIT
cities did not implement fully this key element of the VCIT strategy.

       The OIG found that VCITs might not have focused on targeted
offenders because these offenders represent only about 20 percent of VCIT
arrests. The VCIT initiative was designed to focus on the “worst of the
worst” in areas with a high volume of violent crime. The fact that only one
in five arrestees was classified as a “targeted individual” appeared to be a
low ratio. Moreover, over a third of the VCITs arrested less than half of the
individuals they targeted while arresting many non-targeted individuals,
which indicates that these VCITs did not sufficiently focus on targeted
individuals. We agree that arresting additional alleged offenders is positive,
but ATF designed the VCITs to focus primarily on the worst of the worst.

        The OIG also disagrees with ATF’s statement that the OIG does not
understand the term “worst of the worst” criminals in a community. We
recognized that the definition of the worst of the worst to be targeted across
VCITs would likely differ, as each VCIT should have tailored the definition to
fit local conditions. 33 Yet, we concluded that to effectively implement and

       32 Our report refers to “VCIT Coordinators” because we found that was how ATF
personnel commonly referred to people in that particular position. In its response to the
report, however, ATF used the term “supervisors.”

         33 We agree with ATF that the Philadelphia VCIT’s definition constituted an example

of an acceptable definition. However, we note that the Philadelphia VCIT did not develop a
list of suspects who met this definition.


U.S. Department of Justice
Office of the Inspector General
                                                                                        80
Evaluation and Inspections Division
evaluate the results of this element of the VCIT Strategy, it is necessary to
define which offenders will be targeted, develop a list of targeted individuals
for each VCIT, and track VCIT arrest data for targeted and non-targeted
individuals. Without such information, ATF cannot determine whether a
VCIT tailored this element to its local conditions, effectively implemented the
element, or obtained the desired results.

       3. Build Effective Working Relationships with Community Leaders

       ATF disagreed with our finding that VCITs did not incorporate
community outreach into their strategies and asserted that each of the five
cities that the OIG identified as not participating in community outreach
either had a direct community outreach or a complementary outreach
mechanism in place.

       The information the OIG developed during our site visits does not
support ATF’s contention that community outreach was incorporated into
these cities’ VCIT strategies. During our site visit in Tampa, for example,
several local ATF officials told us that the VCIT was not involved in any
community outreach activities. Only one local official indicated that there
had been some community involvement when the VCIT was initiated. The
officials indicated that ATF participated in other programs in Tampa,
including Drug-Free Kids and the Great American Teach-In, but these were
independent of the VCIT initiative. Similarly, during our visit to Tucson,
local ATF officials reported that the VCIT did not participate in community
activities. However, we noted in our report that the Tucson Police
Department told us that it had mentioned the VCIT at community meetings.

       Further, none of the three examples of ATF community outreach in
Tampa and Tucson address the VCIT Strategy objective to “work with
community leaders to cultivate solid and sustained commitment between
the residents of the community and law enforcement authorities to ensure
positive results.” In their responses to our survey, none of the 19 VCIT
Coordinators reported community activities that addressed the objective of
working with community leaders. Finally, during our site visits, we found
no instance, and ATF’s response offered no examples, of a VCIT reaching
out “to social service agencies, nonprofit community assistance agencies,
faith-based groups, schools, and private businesses to promote a
comprehensive and coordinated community action plan to deal with gang
suppression, intervention, and prevention.” Consequently, we concluded
that our description of the VCIT outreach activity was full and accurate.




U.S. Department of Justice
Office of the Inspector General
                                                                           81
Evaluation and Inspections Division
       4. Utilized ATF’s Investigative Technology Resources

      ATF stated that the OIG mischaracterized the VCITs’ use of technology
resources by stating that they did not consistently use the National Tracing
Center (NTC), National Integrated Ballistics Information Network (NIBIN),
and Crime Gun Analysis Branch (CGAB) services. ATF stated that the OIG’s
survey results revealed extensive use of the technologies. In its response,
ATF also faults the Executive Digest of our report for not fully presenting
much of the site-specific detail and not incorporating the full results of the
review contained in the body of the report.

       Although the OIG acknowledges that, in response to our survey, most
of the VCITs reported that they use these technologies, we do not agree with
ATF’s contention that the data rebut our finding that the VCITs used the
technologies inconsistently. For example, with respect to the NTC usage,
our report states, “Overall, during the 1-year period following the
implementation of the initial 15 VCITs, NTC data showed a 15-percent
increase in the number of trace requests it received from those cities.
However, because the city-wide NTC data is not specific to the VCIT target
areas, the changes may not be attributable to VCIT operations. We also
noted that while 11 of the cities increased their NTC usage, 4 submitted
fewer trace requests.” 34 Further, over half of the VCIT cities made fewer
submissions to the NIBIN after ATF implemented local VCIT operations.

       5. Work in Partnership with Other Department Law Enforcement
          Components

       ATF stated that its greatest concern regarding the OIG’s finding on the
VCITs’ working in partnership with other Department law enforcement
components is that the OIG measured this element by the participation
levels of the other components. ATF also stated that ATF is concerned that
local law enforcement participation is understated in the report.

       The OIG disagrees with ATF’s contention that partnerships with other
Department components should not be used to measure law enforcement
coordination because it is not consistent with the VCIT Strategy. While ATF
was assigned to be the lead agency, the VCIT initiative was intended to
involve the Department’s other law enforcement components. This is
reflected in the VCIT Strategy and in virtually every Department press

       34   Annual firearms tracing data was unavailable for the VCITs that were added
in 2005.



U.S. Department of Justice
Office of the Inspector General
                                                                                         82
Evaluation and Inspections Division
release and speech by ATF and Department officials addressing the VCIT
program.

       Although we believed ATF’s argument regarding federal partners to be
unpersuasive, we added to the report older data on law enforcement
partnerships during the pilot period. The report now includes Department
component partner data obtained through the VCIT Coordinator Survey for
both the pilot period (June 2004 through November 2004) and for
September 2005.

       In addition, the OIG agrees with ATF that local law enforcement
agencies are a key resource for VCIT in achieving many of the program’s
objectives, and we included local and state law enforcement partners in our
descriptions of the VCITs we visited. These groups play a key role in
identifying appropriate target areas, identifying and arresting the “worst of
the worst” violent offenders in those areas, and in identifying and reaching
out to community groups to gain support and cooperation.


ATF’S RESPONSE TO OIG’S RECOMMENDATIONS

      Recommendation 1: Establish specific operational guidelines for
VCIT implementation, and provide training based on these guidelines
for ATF Special Agents in Charge and VCIT Coordinators on tailoring
the VCIT initiative to local crime problems.

       Status: Resolved – Open

      Summary of ATF’s Response: ATF concurred with this
recommendation. In addition, ATF reported that it had completed an
in-depth assessment of the 6-month pilot implementation of VCIT, which
included meetings with all VCIT Coordinators in August 2005. During these
meetings, the VCIT Coordinators articulated their VCIT teams’ strategies.
ATF provided the Coordinators with preliminary copies of a report, Violent
Crime Impact Teams: Best Practices, and ATF personnel made presentations
on the overall VCIT Strategy, reporting requirements, the NIBIN, and
operational guidelines for VCIT implementation.

       ATF also responded that the 10 best practices contained in the Best
Practices report “have been established as the basic tenets for all VCIT
cities.” ATF stated that its “executive leadership” and ODAG “senior staff”
have met with senior representatives from all partner agencies prior to each
VCIT implementation to ensure that the VCITs are tailored to local crime
problems and to address the concerns of the communities where the VCITs

U.S. Department of Justice
Office of the Inspector General
                                                                          83
Evaluation and Inspections Division
were to be located. They further stated that this practice will continue as
ATF implements additional VCITs. Finally, ATF stated that VCIT
implementations may vary within the Best Practices framework.

      OIG’s Analysis: ATF’s actions are partially responsive to this
recommendation. We agree that ATF has taken an important first step in
developing operational guidance for implementing the VCIT strategy by
defining the 10 best practices that each VCIT should implement. We also
agree with ATF that the VCITs must be tailored to local crime problems.
Because a key finding of our review was that rather than tailoring the key
elements of the VCIT Strategy to local operations, VCITs ignored many of the
elements, ATF’s operational guidance should clarify that all VCITs are
required to adapt the 10 best practices and also set standards and provide
guidance for implementing each practice.

      For example, ATF should include guidance to the Field Divisions
regarding criteria and standards for selecting target areas to address issues
such as level of crime, size, population density, and the number of ATF
Special Agents to be assigned. The standards would become the basis for
ATF to determine whether a VCIT is, in fact, implementing the best
practices.

      To close this recommendation, by August 15, 2006, please provide the
OIG with the guidance provided to ATF Field Divisions explaining ATF
requirement that VCITs tailor the 10 best practices to local conditions and
the standards that ATF will use to judge whether each of the 10 best
practices has been implemented. In addition, please provide the OIG with
copies of the presentations, including any handouts used during VCIT
Coordinator meetings, on how to implement the VCIT Strategy, meet
reporting requirements, and use the NIBIN.

      Recommendation 2: Develop and implement a pre-deployment
assessment for prospective VCIT locations to determine the potential
applicability of VCIT to local violent crime problems.

       Status: Resolved – Open

      Summary of ATF’s Response: ATF concurred with this
recommendation. ATF stated that it has surveyed all ATF Special Agents in
Charge (SAC) requesting recommendations for cities where future VCITs
might be deployed. The SACs reportedly based their recommendations on
preliminary analyses of site surveys, which addressed crime rates, the exact
nature of the crime problem in each of the recommended cities, the specific
size and location of the proposed VCIT target area, and the level of support

U.S. Department of Justice
Office of the Inspector General
                                                                              84
Evaluation and Inspections Division
anticipated from other law enforcement agencies. In addition, ATF reported
that it has worked with the Attorney General’s Anti-Gang Coordinating
Committee in developing a Gang Threat Assessment and Law Enforcement
Activity Recommendation. The Committee, composed of one representative
from each of the Department’s law enforcement and criminal prosecution
components, will review and approve all future VCIT sites. According to
ATF’s response, “The [Activity] Recommendation is a thorough assessment,
an analysis of ongoing law enforcement and task force operations, and a
specific plan of operations, including the proposed area of operations and
specific goals of the proposed task force.” In its response, ATF stated that it
will use the Activity Recommendation as a template for the submission of all
future VCIT sites to the Anti-Gang Coordinating Committee for
consideration.

        OIG’s Analysis: ATF’s actions are responsive to our recommendation.
The OIG agrees that ATF’s new process involves its SACs in selecting cities
for VCIT deployment. That change should provide ATF Headquarters with
better information about local crime conditions and law enforcement
resources, something the OIG found lacking when the original cities were
selected. To close this recommendation, by August 15, 2006, please provide
a copy of, or provide access to the OIG to review, the site survey used to
collect information from ATF SACs and the Coordinating Committee’s
assessment and recommendation forms. In addition, please provide three
examples of the survey responses and the assessment and recommendation
for cities under active consideration for VCIT implementation.

      Recommendation 3: Develop and implement an adequate
evaluation strategy to assess VCIT performance and impact on violent
firearms crime.

       Status: Resolved – Open

       Summary of ATF’s Response: ATF concurred with this
recommendation and stated that it will base its program evaluation on
official, validated, crime data as reported through the FBI’s UCR. ATF’s
explained that it now believes that its initial selection of four performance
measures, which included all homicides and all violent crimes, was
overreaching. ATF stated that “considering ATF’s firearms jurisdiction, ATF
determined that any evaluation [of VCIT effectiveness] should be measured
by its impact on firearms-related crimes.” It further concurred with the OIG
that “the best overall evaluation of the VCIT program’s success would be the
number of violent criminal acts [committed] with a firearm.”



U.S. Department of Justice
Office of the Inspector General
                                                                            85
Evaluation and Inspections Division
       ATF explained that data on the reports of criminal acts committed
with a firearm could not be satisfactorily validated until the underlying data
that make up the UCR were released to law enforcement agencies for
analysis. Further, ATF stated that as of May 1, 2006 (18 months after the
end of the pilot), these data were still not available from the FBI. Because
firearms-related violent crime data were not available from the FBI’s UCR,
ATF used homicide data to determine the impact of the VCITs.
Acknowledging that the number of homicides committed with a firearm was
small in some VCIT cities, ATF stated that “when the homicide data is
analyzed over the 15 VCIT cities and compared to the rest of the cities in the
United States, ATF feels any large difference in a trend is statistically
significant.”

       ATF’s response included an analysis of UCR data for total homicides
reported (as opposed to firearms-related homicides) that shows the homicide
rate during the VCIT pilot period (June 2004 through November 2004) in the
15 VCIT cities fell 8.2 percent, while the homicide rate during the same
period in all other U.S. cities fell 1.5 percent. ATF concluded by saying that
it does not claim that the VCIT initiative alone was responsible for these
results. However, ATF said it does believe that there was a “unique and
positive occurrence” in the VCIT communities and that the decline in
homicides “seems beyond mere coincidences and happenstance.” Finally,
ATF stated that the homicide measures used seem appropriate given ATF’s
mission.

OIG’s Analysis: ATF’s actions are partially responsive to this
recommendation. The OIG agrees with ATF that continued emphasis on
evaluation of the VCIT initiative is critical. We also agree that the best
outcome measure of VCIT success is changes in violent firearms crime
rather than only changes in the number of homicides committed with
firearms. The OIG does not agree with ATF’s contention that UCR data are
appropriate for measuring the impact of VCITs on violent firearms crimes
and also disagrees with conclusions based on the analysis of UCR homicide
data. FBI Uniform Crime Reports are issued for U.S. cities approximately 2
years after the year for which the data are collected (e.g., 2004 data will be
released in 2006). However, to determine whether violent firearms crime is
declining in the part of a city where a VCIT operates, ATF needs to obtain
crime data for the target area at regular intervals from the local police
department. For example, the ATF could collect data from a local police
crime-mapping program or from victimization surveys in the target area. 35

       35 To ensure that the necessary target area data are available to evaluate the impact

of VCIT on violent firearm crime, ATF’s site survey should request information on the
                                                                                 (Continued)

U.S. Department of Justice
Office of the Inspector General
                                                                                        86
Evaluation and Inspections Division
      To correctly attribute to VCITs any observed crime reductions, the
evaluation strategy must assess how well the VCITs have implemented the
10 best practices. In the section of our report on evaluation, we provided
examples of performance measures that could be used to assess how well
VCITs implemented the five key elements, which are included in the 10 best
practices.

      To close this recommendation, by August 15, 2006, please provide the
OIG with a copy of ATF’s guidance to the Field Divisions on implementing
an evaluation strategy that provides information on how well local VCIT
operations are adapting and implementing the 10 best practices, outcome
data on violent firearms crime in the target area, and requirements for
reporting evaluation data and information to ATF Headquarters.

      Recommendation 4: For existing VCITs, where possible, and for
future VCITs, establish interagency agreements with federal and local
partner agencies that define resource commitments and operational
responsibilities.

       Status: Resolved – Open

      Summary of ATF’s Response: ATF concurred with this
recommendation. ATF stated that it has developed uniform Memorandums
of Understanding (MOU) for all future VCIT operations and that these MOUs
are under review by ATF counsel. ATF stated that the MOUs, in conjunction
with the Coordinating Committee’s assessment and recommendation forms
that require concurrence by all participating law enforcement agencies, will
provide a full understanding of resource commitments and operational
responsibilities.

      ATF further responded that the DEA and USMS fiscal year 2008
budget request will include funding for 2 full-time positions to serve on each
of 40 VCITs.

      OIG’s Analysis: ATF’s actions are responsive to this
recommendation. To close this recommendation, by August 15, 2006,
please provide copies of ATF counsel-approved standard MOUs that ATF
plans to use in the future.



accessibility of such data. ATF should also address access to local crime data in its
Memorandums of Understanding with local law enforcement agencies (see
Recommendation 4).


U.S. Department of Justice
Office of the Inspector General
                                                                                        87
Evaluation and Inspections Division
      Recommendation 5: Establish management authority and
responsibility for overseeing the implementation and evaluation of
local VCIT operations in accordance with ATF’s VCIT Strategy and the
guidelines developed in response to Recommendation 1.

       Status: Resolved – Open

      Summary of ATF’s Response: ATF concurred with this
recommendation. ATF stated that VCIT was a pilot program and therefore
ATF provided broad guidance to the field to gauge what practices would
prove most successful as well as to allow each VCIT to address specific
community issues and unique problems that were the root causes of the
violent crime problem.

       ATF’s response states that its Best Practices report will continue to
serve as clear operational guidance for the VCITs’ operations. Additionally,
ATF Field Divisions are now required to submit biannual plans that address
or reevaluate current crime problems, target areas, and concepts of
operations. The Field Divisions must also submit written justifications if
they wish to vary from the approved local VCIT strategic plans. In addition,
Field Divisions are required to submit weekly workload statistics on arrests,
gun traces, and seizures, and monthly performance reports on outcome
measures such as number of homicides and, where available, violent crime
statistics.

       OIG’s Analysis: ATF’s actions are partially responsive to our
recommendation. We agree that the information ATF now requires from
each Field Division on its VCIT operations will assist ATF Headquarters in
overseeing the implementation of the VCIT initiative. However, ATF did not
identify the organizational units at ATF Headquarters that have the
responsibility for reviewing and assessing this information and the authority
to direct adjustments in VCIT implementation where necessary.

       To close this recommendation, by August 15, 2006, please identify the
organizational units within ATF that will be responsible for overseeing:
(1) the implementation and evaluation of local VCIT operations and ensuring
that the local VCITs are meeting their reporting requirements and
(2) compliance with ATF’s VCIT Strategy, including the guidelines developed
in response to Recommendation 1. If these responsibilities are allocated
among different units, provide a description of how these units
communicate and coordinate to ensure compliance with VCIT operating,
reporting, and evaluation guidelines.



U.S. Department of Justice
Office of the Inspector General
                                                                          88
Evaluation and Inspections Division
